                                                                             Report No. DODIG-2014-076



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              M AY 2 1 , 2 0 1 4




                     Opportunities for Cost Savings
                     and Efficiencies in the
                     DoD Permanent Change
                     of Station Program




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
    I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                         Mission
       Our mission is to provide independent, relevant, and timely oversight
       of the Department of Defense that supports the warfighter; promotes
       accountability, integrity, and efficiency; advises the Secretary of
                  Defense and Congress; and informs the public.



                                          Vision
       Our vision is to be a model oversight organization in the Federal
       Government by leading change, speaking truth, and promoting
       excellence—a diverse organization, working together as one
                professional team, recognized as leaders in our field.




                                     Fraud, Waste, & Abuse

                                     HOTLINE
                                     Department of Defense
                                     d o d i g. m i l / h o t l i n e




For more information about whistleblower protection, please see the inside back cover.
                               Results in Brief
                               Opportunities for Cost Savings and Efficiencies in the
                               DoD Permanent Change of Station Program



May 21, 2014                                     Finding (cont’d)

Objective                                           •	 DoD imposes weight limits for HHG shipments during
                                                       certain local moves;
The objective of the audit was to determine
whether DoD could implement potential cost          •	 DoD uses the most cost-effective mode of transportation
savings and efficiencies throughout the DoD            for all overseas PCS moves; and
Permanent Change of Station (PCS) Program.
                                                    •	 DoD considers implementing a statutory incentive that
                                                       would allow service members to voluntarily reduce
Finding                                                the weight of shipped HHG and receive a portion of
                                                       the savings.
While DoD and the Services implemented
or plan to implement various initiatives to
reduce costs and improve the PCS Program,        Recommendations
additional efficiencies and savings within the   We recommend that Under Secretary of Defense (Comptroller)/
$4.2 billion PCS Program could be realized       Chief Financial Officer, DoD; Under Secretary of Defense
by implementing controls to ensure that:         for Personnel and Readiness; and the Deputy Assistant
                                                 Secretary of Defense for Transportation Policy, convene a
   •	 the Services are tracking and
                                                 working group to study the feasibility of implementing a
      managing      nontemporary    storage
                                                 statutory incentive to encourage sharing of costs savings
      (NTS) entitlements, and service
                                                 when minimizing the weight of HHG shipments.
      members assume management and
      financial responsibility and payment
                                                 We recommend that Under Secretary of Defense for Personnel
      for NTS liabilities after the initial
                                                 and Readiness, and the Deputy Assistant Secretary of Defense
      entitlement period expires;
                                                 for Transportation Policy, update the Joint Federal Travel
   •	 the Army improves oversight of             Regulations to remove authority for the Government to
      overpayments made for service              continue paying NTS costs after the entitlement period
      members who exceed their maximum           expires; and to apply weight limitations to local moves
      household    goods    (HHG)  weight        executed at the convenience of the Government.
      entitlements when conducting legacy
      system multiple shipments;                 We recommend that the Commander, U.S. Transportation
                                                 Command, update the Defense Transportation Regulation
   •	 personnel property shipping office         to remove language allowing the Services to pay for expired
      personnel use the most cost-effective      NTS lots after the initial entitlement period, evaluate the
      method to accomplish domestic moves        cost‑effectiveness of using each Patriot Express channel for
      weighing 1,000 pounds or less;




Visit us at www.dodig.mil


                                                                    DODIG-2014-076 (Project No. D2014-D000CJ-0028.000) │ i
                                       Results in Brief
                                       Opportunities for Cost Savings and Efficiencies in the
                                       DoD Permanent Change of Station Program



  Recommendations (cont’d)

  PCS travel and pending the results of the review, take      the Director, Marine Corps Logistics Plans, Policy, and
  appropriate action to reduce the number of Patriot          Strategic Mobility, agreed to their respective
  Express missions flown, if warranted.                       recommendations and addressed all of the specifics of
                                                              the recommendations.
  In addition, we recommend the Services develop quality
  control and standard operating procedures to ensure         Comments from the Assistant Secretary of Defense for
  personal property shipping office personnel perform         Readiness and Force Management, responding for the
  quarterly reviews of all NTS lots; and establish policy     Under Secretary Defense for Personnel and Readiness,
  requiring personal property shipping office personnel       and the Commander, Naval Supply Systems Command,
  to use the most cost-effective method to ship and store     partially addressed the recommendations. We received
  domestic HHG weighing 1,000 pounds or less. Finally,        comments from the Deputy Assistant Secretary of
  we recommend the Army implement controls requiring          Defense for Transportation Policy and the Commander,
  that overpayments made for service members exceeding        U.S. Transportation Command, too late to include them
  maximum HHG weight entitlements for legacy system           in the final report.
  multiple shipments are tracked and forwarded to the
  appropriate entity for recoupment.                          We request that the Under Secretary of Defense for
                                                              Personnel and Readiness; Deputy Assistant Secretary
                                                              of Defense for Transportation Policy; Commander,
  Management Comments and                                     U.S. Transportation Command; and the Commander,
  Our Response                                                Naval Supply Systems Command, provide comments
                                                              in response to this report by June 20, 2014. If the
  The Deputy Comptroller (Program/Budget), responding
                                                              Assistant Secretary of Defense for Transportation Policy
  for the Under Secretary of Defense (Comptroller)/
                                                              and the Commander, U.S. Transportation Command,
  Chief Financial Officer, DoD; the Acting Director, Force
                                                              do not submit additional comments, we will consider
  Projection and Distribution, responding for the Deputy
                                                              their comments to the draft report as the
  Chief of Staff, Army Logistics; the Deputy Director,
                                                              management response to the final report. Please
  Headquarters Air Force Logistics, responding for the
                                                              see the Recommendations Table on the next page.
  Director, Headquarters Air Force Logistics; and the Staff
  Director, Headquarters Marine Corps, responding for




ii │ DODIG-2014-076 (Project No. D2014-D000CJ-0028.000)
Recommendations Table
                                                   Recommendations       No Additional
                    Management                     Requiring Comment   Comments Required
 Under Secretary of Defense (Comptroller)/                             1
 Chief Financial Officer, DoD
 Under Secretary of Defense for Personnel          2.b                 1, 2.a
 and Readiness
 Deputy Assistant Secretary of Defense             1, 2.a, 2.b
 for Transportation Policy
 Commander, U.S. Transportation Command            3.a, 3.b, 3.c
 Deputy Chief of Staff, Army Logistics                                 4.a, 4.b, 4.c
 Commander, Naval Supply Systems Command           5.a                 5.b
 Director, Headquarters Air Force Logistics                            6.a, 6.b
 Director, Marine Corps Logistics Plans, Policy,                       7.a, 7.b
 and Strategic Mobility

Please provide comments by June 20, 2014.




                                                                                           DODIG-2014-076│ iii
                                             INSPECTOR GENERAL
                                            DEPARTMENT OF DEFENSE
                                            4800 MARK CENTER DRIVE
                                         ALEXANDRIA, VIRGINIA 22350-1500


                                                                                            May 21, 2014

           MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                          	 CHIEF FINANCIAL OFFICER, DOD
                          UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                          	 TECHNOLOGY, AND LOGISTICS
                          UNDER SECRETARY OF DEFENSE FOR PERSONNEL
                          	 AND READINESS
                          COMMANDER, U.S. TRANSPORTATION COMMAND
                          ASSISTANT SECRETARY OF THE AIR FORCE
                          	 (FINANCIAL MANAGEMENT AND COMPTROLLER)
                          AUDITOR GENERAL, DEPARTMENT OF THE ARMY
                          NAVAL INSPECTOR GENERAL

           SUBJECT:	 Opportunities for Cost Savings and Efficiencies in the DoD Permanent
                     Change of Station Program (Report No. DODIG-2014-076)

           We are providing this report for your review and comment. The House of Representatives,
           Committee on Appropriations requested the DoD Office of the Inspector General perform
           this audit. Although the Services implemented or plan to implement various initiatives
           designed to reduce costs and improve the DoD Permanent Change of Station Program, other
           opportunities for savings exist. In this time of uncertainty and shrinking budgets, DoD
           must take full advantage of every opportunity to gain efficiencies and implement cost
           savings throughout the $4.2 billion Permanent Change of Station Program. We considered
           management comments on a draft of this report when preparing the final report.

           DoD Directive 7650.3 requires that recommendations be resolved promptly. We received
           Assistant Secretary of Defense for Transportation Policy comments and Commander,
           U.S. Transportation Command, comments on the draft report too late to include them in the
           final report. Therefore, we request the Assistant Secretary of Defense for Transportation
           Policy comment on Recommendations 1, 2.a, and 2.b and the Commander, U.S. Transportation
           Command, comment on Recommendations 3.a, 3.b, and 3.c. If the Assistant Secretary of
           Defense for Transportation Policy and the Commander, U.S. Transportation Command, do not
           submit additional comments, we will consider those comments as the management response
           to the final report. Comments from the Under Secretary of Defense for Personnel and
           Readiness and the Commander, Naval Supply Systems Command, partially addressed the
           recommendations in the report. Therefore, we request the Under Secretary of Defense for




iv │ DODIG-2014-076
Personnel and Readiness provide additional comments on Recommendation 2.b and
the Commander, Naval Supply Systems Command, provide additional comments on
Recommendation 5.a. You should also comment on the internal control weaknesses discussed
in the report. We should receive your comments by June 20, 2014.

Comments from the Under Secretary of Defense (Comptroller)/Chief Financial Officer,
DoD; Deputy Chief of Staff, Army Logistics; Director, Headquarters Air Force Logistics; and
Director, Marine Corps Logistics Plans, Policy, and Strategic Mobility, addressed all of the
specifics of the recommendations and conformed to the requirements of DoD Directive 7650.3;
therefore, we do not require additional comments.

Please send a PDF file containing your comments to audyorktown@dodig.mil. Copies of your
comments must have the actual signature of the authorizing official for your organization. We
cannot accept the /Signed/ symbol in place of the actual signature. If you arrange to send
classified comments electronically, you must send them over the SECRET Internet Protocol
Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8901 (DSN 664-8901).




	                                             Daniel R. Blair
	                                             Deputy Inspector General
	                                              for Auditing




                                                                                       DODIG-2014-076│ v
                  Contents
                  Introduction
                  Objective__________________________________________________________________________________________1
                  Background_______________________________________________________________________________________1
                  Review of Internal Controls_____________________________________________________________________4

                  Finding. DoD Missed Opportunities to Implement Cost
                  Savings and Gain Efficiencies in the Permanent Change
                  of Station Program__________________________________________________________________5
                  The Services Could Reduce Nontemporary Storage Costs____________________________________6
                  The Army Could Improve Oversight of Excess Costs Paid for Legacy System
                     Multiple Shipments________________________________________________________________________ 10
                  The Services Could Reduce Domestic Shipment and Storage Costs for
                     Household Goods Weighing 1,000 Pounds or Less_ ____________________________________ 13
                  DoD Could Reduce Costs by Limiting Excessive Weight Allowances
                     During Local Moves_ ______________________________________________________________________ 16
                  More Cost-Effective Transportation Options are Available for Overseas Permanent
                     Change of Station Travel__________________________________________________________________ 18
                  DoD Could Reduce Household Goods Shipping Costs by Implementing
                     a Statutory Incentive______________________________________________________________________ 21
                  Ongoing and Planned Initiatives to Reduce Costs and Improve the Permanent
                     Change of Station Program_ ______________________________________________________________ 22
                  Conclusion______________________________________________________________________________________ 25
                  Recommendations, Management Comments, and Our Response__________________________ 26

                  Appendixes
                  Appendix A. Scope and Methodology________________________________________________________ 36
                        Review of Documentation and Interviews____________________________________________ 36
                        Use of Computer-Processed Data______________________________________________________ 40
                        Use of Technical Assistance_____________________________________________________________ 40
                  Appendix B. Prior Coverage __________________________________________________________________ 41
                  Appendix C. Organizations Visited or Contacted____________________________________________ 44




vi │ DODIG-2014-076
Contents (cont’d)
Management Comments_____________________________________________________ 47
Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD__________________ 47
Under Secretary of Defense for Personnel and Readiness__________________________________ 48
Army Logistics_ ________________________________________________________________________________ 50
Naval Supply Systems Command_____________________________________________________________ 52
Headquarters, Air Force Logistics____________________________________________________________ 55
Marine Corps Logistics Plans, Policy, and Strategic Mobility_______________________________ 57

Acronyms and Abbreviations______________________________________________ 60




                                                                                                  DODIG-2014-076│ vii
                                                                                           Introduction




Introduction
Objective
Our announced objective was to determine whether DoD was achieving cost
savings and efficiencies in the Permanent Change of Station (PCS) Program.
We modified our objective to better capture the congressional mandate that
generated the audit. We determined whether DoD could implement potential
cost savings and efficiencies throughout the DoD PCS Program. See Appendix A
for a discussion of the scope and methodology and Appendix B for prior coverage
related to the objective.


Background
The House Committee on Appropriations required in their report to accompany
the FY 2014 DoD Appropriations bill that the DoD Office of the Inspector
General review the $4.2 billion PCS Program and determine whether potential
cost savings and efficiencies could be implemented throughout the program.
The Joint Federal Travel Regulations (JFTR), Volume 1, “Uniformed Service
Members,” defines PCS as the assignment, detail, or transfer of an employee,
service member, or unit to a different permanent duty station under an
approved travel order that does not specify the duty is temporary. Additionally,
the JFTR provides the authority for certain travel allowances related to PCS moves.
Each Service pays its service members’ PCS travel expenses from its Military
Personnel    appropriations.   In   FY   2013,   DoD     experienced   congressionally
mandated reductions of approximately $146.8 million to its Military Personnel
appropriations and approximately $294.3 million in FY 2014. Public Law 113‑76,
“Consolidated Appropriations Act, 2014,” January 17, 2014, categorized the
FY 2014 reduction as a reduction for “PCS efficiency.”


Transportation Management
The Office of the Under Secretary of Defense for Personnel and Readiness
(USD[P&R]) centrally manages commercial travel for DoD. Within the Office of
the USD(P&R), the Defense Travel Management Office manages the regulation
development and approval process for the JFTR. Specifically, the Defense Travel
Management Office manages the day-to-day operation of the Per Diem, Travel
and Transportation Committee staff that ensures travel and transportation
regulations are, as far as practicable, consistent for all of the Services.




                                                                                         DODIG-2014-076│ 1
Introduction



                 The Under Secretary of Defense for Acquisition, Technology, and Logistics
                 (USD[AT&L]) evaluates and provides general policy guidance for the DoD Personal
                 Property Shipment and Storage Program. USD(AT&L) also provides guidance to
                 the DoD Components concerning the efficient acquisition and use of DoD and
                 commercial transportation resources and services. Through the Assistant Deputy
                 Secretary of Defense for Transportation Policy, USD(AT&L) maintains liaison
                 and collaborative working relationships with other Federal agencies and the
                 commercial industry. The Defense Personal Property Program Joint Service Team,
                 also referred to as the “Joint Service Team,” consists of transportation experts from
                 DoD and the Services. Representatives from the Assistant Deputy Secretary of
                 Defense     for   Transportation     Policy    and   U.S.     Transportation      Command
                 (USTRANSCOM) co-chair the Joint Service Team, which DoD established to gain
                 efficiencies across all program elements under the umbrella of the Defense
                 Personal Property Program.

                 DoD Directive 4500.09E, “Transportation and Traffic Management,” September  11,  2007,
                 directs the Commander, USTRANSCOM, as the single-manager for common user
                 transportation, to develop, publish, and maintain DoD Regulation 4500.9-R,
                 Defense Transportation Regulation (DTR). Accordingly, USTRANSCOM must
                 acquire common user transportation and related services to meet DoD
                 transportation requirements. DoD Instruction 4500.57, “Transportation and Traffic
                 Management,” March 2008, directs USTRANSCOM to administer DoD’s Personal
                 Property Program. At the direction of USTRANSCOM, Military Surface Deployment
                 and   Distribution   Command       administers   DoD’s      Personal   Property      Program,
                 which selects, manages, and works with transportation service providers that
                 move household goods (HHG) and privately owned vehicles.


                 Defense Personal Property System
                 DoD’s Personal Property Program was developed to improve the PCS process for
                 service members, civilians, and their families by promoting quality of service and
                 streamlining the overall process. To implement DoD’s Personal Property Program,
                 DoD developed the Defense Personal Property System (DPS), a web-based system
                 for the management of DoD personal property shipments. DPS replaced the
                 legacy Transportation Operational Personal Property Standard System (TOPS).
                 According    to   USTRANSCOM,      DoD    is   responsible    for   moving     and    storing
                 approximately 500,000-600,000 shipments at a cost of over $2.2 billion annually




2 │ DODIG-2014-076
                                                                                         Introduction



and DPS implementation already resulted in savings of approximately $167 million
to DoD. Finally, the Deputy Program Manager for DPS stated that as of
November 2013, DPS was at 90 percent capability, with 10 percent capability
remaining in the TOPS legacy system.


Direct Procurement Method
The Direct Procurement Method Program was established to manage the shipment
of domestic and international HHG, and unaccompanied baggage shipments using
Federal Acquisition Regulation-based Government contracts. Local contracting
offices solicit and award direct procurement method contracts, and the personal
property shipping offices (shipping offices) administer them. In accordance
with the DTR Part IV, “Personal Property,” August 2013, Chapter 404, “Direct
Procurement Method,” local contracting offices award all direct procurement
method contracts using the same performance work statement and bid schedules.
Specifically, direct procurement method contracts include packing, containerization,
delivery, unpacking, storage, and related services for personal property shipments.
On October  4,  2013, USTRANSCOM awarded a contract for Phase III implementation
of DPS, which included integration of direct procurement method shipments.
The TOPS system administers all direct procurement method moves (legacy
system moves) until integration to DPS is complete.


Nontemporary Storage
Nontemporary storage (NTS) is long-term HHG storage at Government expense
in lieu of the transportation entitlement that DoD generally offers to service
members with orders for PCS, deployment, retirement, or separation. NTS includes
necessary packing, crating, unpacking, uncrating, transportation to and from
the storage location, storage, and other directly related services to place the
HHG in Government-designated storage facilities.


The Patriot Express
Air Mobility Command is a component command of USTRANSCOM and according
to the Channel Passenger Performance and Analysis Report provides responsive
and economic airlift to satisfy training and logistics requirements for all DoD
agencies. Air Mobility Command, as the manager for DoD airlift, charters
commercial flights known as Patriot Express flights for DoD international travel.
Patriot Express flights operate regular schedules between select military or
commercial international air terminals. In accordance with DoD Instruction 4500.57,




                                                                                       DODIG-2014-076│ 3
Introduction



                 “Transportation and Traffic Management,” March 18, 2008, Enclosure 3, “Air
                 Transportation,”   international   travelers   must   use   USTRANSCOM-contracted
                 airlift or Patriot Express flights before taking scheduled commercial air service,
                 unless there is a documented negative critical mission impact.


                 Review of Internal Controls
                 DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
                 May 30, 2013, requires DoD organizations to implement a comprehensive system
                 of internal controls that provides reasonable assurance that programs are
                 operating as intended and to evaluate the effectiveness of the controls.
                 We determined that DoD did not have controls to provide reasonable assurance
                 that it is realizing all cost savings and efficiencies within the PCS Program.
                 Specifically, DoD did not have controls to ensure that the Services monitor NTS
                 lot entitlements and convert expired NTS lots to service members’ expense after
                 the initial entitlement period expires; that the Army improved oversight of
                 overpayments made for service members who exceeded their maximum HHG
                 weight entitlements when conducting legacy system multiple shipments; and
                 that shipping office personnel selected the most cost-effective method to
                 accomplish domestic moves weighing 1,000 pounds or less. Additionally, DoD
                 allowed unlimited weight limits for HHG during certain local moves and DoD
                 used Patriot Express charter flights for overseas PCS moves versus established
                 Government fares. Finally, DoD did not implement a statutory incentive that
                 would share savings with service members who voluntarily reduce the weight of
                 HHG shipped. We will provide a copy of the report to the senior official
                 responsible for internal controls in the USD(AT&L); USD(P&R); the Departments
                 of the Army, Navy, and Air Force; and USTRANSCOM.




4 │ DODIG-2014-076
                                                                                           Finding




Finding
DoD Missed Opportunities to Implement Cost Savings
and Gain Efficiencies in the Permanent Change of
Station Program
DoD could gain efficiencies and realize cost savings within the PCS Program by
implementing controls to ensure that:

        •	 the Services are tracking and managing NTS entitlements, and service
           members assume management and financial responsibility and payment
           for NTS liabilities after the entitlement period expires;

        •	 the Army improves oversight of overpayments made for service
           members who exceed their maximum HHG weight entitlements when
           conducting legacy system multiple shipments;

        •	 shipping office personnel use the most cost-effective method to
           accomplish domestic moves weighing 1,000 pounds or less;

        •	 DoD imposes weight limits for HHG during certain local moves;

        •	 DoD uses the most cost-effective and efficient mode of transportation
           for all overseas PCS moves; and

        •	 DoD considers implementing a statutory incentive that would allow
           service members to voluntarily reduce the weight of shipped household
           goods and receive a portion of the savings.

DoD and the Services implemented or planned to implement various initiatives
to reduce costs and improve the PCS Program. By implementing controls for the
areas above, DoD could gain efficiencies and realize additional cost savings to
help manage shrinking budgets.




                                                                                   DODIG-2014-076│ 5
Finding



                 The Services Could Reduce Nontemporary
                 Storage Costs
                 The Services could reduce NTS costs by implementing controls to monitor
                 entitlements and to convert expired1 NTS lots to service members’ expense after
                 the entitlement period expires. Shipping office personnel did not track, manage,
                 or take appropriate action on all active duty, retired, and separated service
                 members’ expired NTS lots.


                 Nontemporary Storage Lots for Active Duty Service Members
                 Need Review
                 Based on data the Air Force provided, the Services paid approximately $5 million,2
                 as of February 2014, for more than 2,700 active duty service members’ NTS lots that
                 the Services reported as expired.3 The JFTR, Volume 1, Chapter 5, “Permanent
                 Duty Travel,” Part D, “HHG Transportation and NTS,” Section 11, “NTS,” identifies
                 specific conditions where active duty service members are entitled to NTS. For each
                 condition, the JFTR also assigns a timeframe for how long the entitlement remains
                 valid. Generally, the JFTR bases a service member’s NTS entitlement on the duration
                 of the service member’s PCS orders.4 According to data the Air Force provided,
                 there were instances of extended periods of NTS. For example, the data showed
                 that the Army paid storage costs for one NTS lot dating back to 1988, which had
                 been in storage for 26 years, of which 23 years were expired. If the Services do
                 not monitor and track the validity of the conditions for NTS lots, they may
                 incur additional expenses for HHG storage.


                 Nontemporary Storage Lots for Retired and Separated Service
                 Members Exceeded Initial Entitlements
                 Based on data the Air Force provided, the Services continued to pay for over
                 600 retired and separated service members’ NTS lots, as of February 2014, that
                 the Services reported as expired and maintained at the Government expense.
                 The JFTR, Volume 1, Chapter 5, Part D, Section 6, “Separation from the Service
                 or Relief from Active Duty Except for Discharge with Severance or Separation Pay,”


                 	1	
                     Lots that surpassed the initial entitlement period for retired and separated service members.
                 	2	
                     Based on data the Air Force provided, the $5 million included costs for storing HHG during the approved
                     entitlement period.
                 	3	
                     The Air Force Joint Personal Property Shipping Office Chief for Customer Information Management stated that the Services
                     expired date is reported based on the transportation service provider renegotiating the NTS rates; not the entitlement date
                     prescribed by the JFTR.
                 	4	
                     PCS orders are generally issued for 24 to 48 months.




6 │ DODIG-2014-076
                                                                                                                                       Finding



and Section 7, “Retirement, Placement on TDRL, Discharge with Severance or
Separation Pay, or Involuntary Release from Active Duty with Readjustment or
Separation Pay,” states that retired and separated service members’ are entitled
to an initial NTS entitlement period for storing HHG at the Government’s expense
of 1 year after they retire and 6 months after they separate. The Service may
extend NTS entitlements, with the Government acting as the service member’s
agent, if the Service’s Secretariat level approves it and the service member agrees
to pay all costs for NTS for any period over the authorized storage period.
However, according to the JFTR, a time extension does not extend the
Government’s obligation for storage costs beyond the initial entitlement period.

According to data the Air Force provided, the Army maintained NTS lots, at
Government expense, for retired and separated service members dating back
to 1999, and as of February 24, 2014, those NTS lots were still in storage. The Army
NTS lots were 14 years past the JFTR initial entitlement period. Additionally,
based on data the Air Force provided, an Air Force NTS lot was in storage,
at Government expense, 5 years past the entitlement period at a cost to the Air Force
of $51,000. Based on this data, the Government paid approximately $1.7 million5
for expired NTS lots for retired and separated service members. If the Services do
not take action on these expired NTS lots, the service members’ liabilities to the
Government will continue to grow. Additionally, the Government will continue to
incur these expenses until it recoups overpayments.


Difficulties in Conversion and Recoupment for Nontemporary
Storage Lots
Navy, Air Force, and Marine Corps personnel stated they experienced problems
with converting NTS lots to service members’ expense and recouping funds for
expired NTS lots. Naval Supply Systems Command personnel and an Air Force
Joint Personal Property Shipping Office Section Chief stated that the Services had
difficulties contacting service members, which is a requirement to convert NTS
lots and recoup overpayments. Additionally, a Marine Corps Logistics Policy
Division representative stated that Marine Corps retired and separated service
members did not always repay the NTS expenses.

The DTR Part IV, Chapter 406, “Storage,” requires transportation officers to
provide notice, by certified letter, to the service member at least 45 days before the
first day of the month when the NTS entitlement expires. This notice requires
the service member to schedule delivery of NTS lots, provide official orders

	5	
      Based on data the Air Force provided, the $1.7 million included storing HHG during the initial NTS entitlement period.


                                                                                                                               DODIG-2014-076│ 7
Finding



                 authorizing an extension of the NTS entitlement, or continue NTS at the service
                 member’s own expense. When service members request HHG shipment or storage,
                 they complete a DD Form 1299, “Application for Shipment and/or Storage of
                 Personal Property.” The DD Form 1299 requires the service member to certify
                 that when the authorized period of storage at the Government expense expires,
                 and the service member does not remove the HHG after 30 days’ notice, the
                 Government may place and store the HHG in commercial storage at the service
                 member’s expense.

                 The Air Force Joint Personal Property Shipping Office Chief for Customer
                 Information Management stated that as a courtesy, he distributed NTS reports
                 monthly to the Services regarding NTS lots that the Services should have
                 converted to the service members’ expense. However, he stated that the data
                 showed that the Services were not actively working the expired NTS lots, and they
                 were   not   enforcing    the   conversion   of   the   NTS   lots,   which   resulted    in
                 overpayments. Naval Supply Systems Command personnel explained that the
                 backlog in sending expiration notices and converting expired NTS lots is because
                 of   constraints   on    personnel   resources,   resulting   from    Sequestration      and
                 budget reductions.


                 Travel Regulations Allow Government to Continue Paying for Nontemporary
                 Storage Lots After Initial Entitlement Period
                 The JFTR does not require the Services to convert expired NTS lots after the
                 initial entitlement period from the Government’s responsibility to the service
                 members’ direct responsibility. Although the DTR Part IV, Chapter 406, directs
                 the transportation officer to terminate all NTS lots stored at the Government’s
                 expense beyond the authorized storage period and advises the NTS transportation
                 service provider to bill the service member directly for future storage costs,
                 the DTR also allows the Services to continue to pay for the NTS until delivery
                 of the property and continued storage is subject to reimbursement by the service
                 member. By not converting the expired NTS lots immediately after the initial
                 entitlement period, the Government maintains the responsibility for managing
                 and paying for the lot until the service members retrieve their HHG, at which
                 point the service members must reimburse the Government. Transferring the
                 responsibility immediately after the initial entitlement period expires would
                 reduce the risk that DoD would not recoup those expenses incurred after the
                 authorized storage period and reduce the risk of the service members running
                 up large amounts of debt to the Government.




8 │ DODIG-2014-076
                                                                                                           Finding



Navy Implemented Policy, but Other Services Did Not
In May 2011, the Naval Supply Systems Command implemented policy to terminate
retired and separated service members’ NTS accounts upon the expiration of
entitlement and convert the NTS lot to the service member’s expense. Naval
Supply Systems Command personnel reported a $7.6 million decrease in Navy NTS
costs from FY 2009 to FY 2011, from $23 million to $15.4 million, respectively.
Additionally, a Marine Corps Logistics Policy Division representative stated that
the Marine Corps personnel were updating the Marine Corps Personal Property
Transportation Manual to follow the Navy NTS policy. Conversely, according to
an   Army    Headquarters    Traffic    Management        Specialist    and    the   Air   Force
Headquarters Division Chief for Personal Property Policy, the Army and the
Air Force did not have plans to implement an NTS conversion policy similar to
the Navy’s policy, thus continuing to manage and pay for the expired NTS lots for
the service members as allowed by the JFTR.


Additional Costs to the Government
Because the Services did not review service members’ NTS lots or convert NTS
lots after the initial entitlement period, the Government continued to incur
expenses, and service members continued to incur liabilities to repay the
Government.    Overpayments     require    additional       resources     to
identify expired NTS lots and recoupment from the
service member is not always successful. The Services
                                                                       Overpayments
should   develop   quality    control     and    standard
                                                                     require additional
operating procedures to ensure shipping office                      resources to identify
personnel perform quarterly reviews of all NTS                      expired NTS lots and
lots to determine whether the entitlements are                     recoupment from the
                                                                   service member is not
still valid based on the situation used to establish                 always successful.
he NTS lot, and initiate action to convert those NTS
lots where the entitlement no longer exists from a
Government    storage   account    to    the    service     member’s
responsibility and expense. DoD should also modify the JFTR to remove authority
for the Government to continue paying for NTS lots after the entitlement
period expires to ensure that the service member does not continue to incur
liability to the Government and the Government does not overpay for service
members’ NTS entitlements. Finally, pending the modification of the JFTR,
USTRANSCOM should update the DTR by removing language allowing the Services
to continue paying for expired NTS lots after the initial entitlement period.




                                                                                                   DODIG-2014-076│ 9
Finding



                 The Army Could Improve Oversight of Excess Costs Paid
                 for Legacy System Multiple Shipments
                 The Army could improve oversight of overpayments made for service members
                 who exceed their maximum HHG weight entitlements when conducting legacy
                 system multiple shipments. Because DPS did not have the capability to compare
                 personally procured moves and legacy system moves to identify the excess costs
                 service members owed to the Government, oversight was necessary to identify
                 when service members exceeded their maximum weight entitlement. The Air Force,
                 Navy, and Marine Corps had oversight functions that monitored excess HHG
                 weights, but the Army did not.

                 The JFTR, Volume 1, Chapter 5, Part D, Section 1, “General,” entitles service
                 members to move a maximum HHG weight allowance based on rank and whether
                 the service member has dependents. The Services pay for the transportation
                 and storage of the service members’ HHG, up to the maximum weight entitlement
                 the JFTR outlines. Service members can transport their HHG various ways,
                 including legacy system moves; personally procured moves; or a combination
                 of both move types, known as multiple shipments. Local shipping offices administer
                 legacy system moves. Personally procured moves are “do-it-yourself” moves the
                 service members perform, for which the Services reimburse the service member
                 for the costs associated with the move.


                 Inability to Identify Excess Costs Owed
                 Although DD Form 1797, “Personal Property Counseling Checklist,” requires service
                 members to acknowledge their responsibility for any excess HHG costs, DPS did not
                                                have the capability to compare the personally procured
                              DPS did              moves and legacy system moves to identify the excess
                            not have the             costs service members owed to the Government. The
                       capability to compare          DD Form 1797 requires service members to
                      the personally procured
                      moves and legacy system         certify that they will reimburse the Government
                       moves to identify the          for any excess costs associated with the HHG
                        excess costs service          shipment. In April 2010, personally procured
                       members owed to the
                                                     move capabilities were added to DPS functionality.
                           Government.
                                                   However,    legacy   system    moves    were    still
                                                administered through TOPS, and DPS did not provide
                                      the final HHG weights for the legacy system moves in TOPS
                 that were necessary to identify overpayments made for legacy system multiple




10 │ DODIG-2014-076
                                                                                                           Finding



shipments. For example, according to the JFTR, an E-6 service member with
dependents is entitled to move a maximum of 11,000 pounds of HHG. Figure 1
depicts the E-6 service member conducting a legacy system move before a personally
procured move.

Figure 1. Multiple Shipments Using a Legacy System Move Before a Personally
Procured Move
     Legacy System Move            Personally Procured Move                 Calculation
 •	 Service member                •	 Service member moves an       •	 Transportation office
    requests movement of             additional 5,000 pounds          personnel must perform
    9,000 pounds and shipping        through a personally             a calculation pulling
    office personnel book the        procured move. Data is           data from TOPS and DPS
    shipment using a legacy          entered into DPS.                to determine the total
    system move in TOPS.                                              HHG weights. This ensures
                                  •	 DPS did not provide              the service member
 •	 Service pays transportation      the detail necessary for         is only reimbursed for
    service provider to move         shipping office personnel        remaining HHG weight
    9,000 pounds.                    to determine a service           entitlement or the
                                     member’s combined                Services identify excess
 •	 Service member has               HHG weights when the
    2,000 pounds of                                                   costs for recoupment.
                                     service member splits
    remaining entitlement.           HHG between a personally
                                     procured move and a
                                     legacy system move.


When a service member conducts a legacy system move before a personally
procured move, transportation office personnel must use HHG weight amounts
listed in TOPS and DPS to calculate the remaining HHG weight entitlement.
This method prevents the Services from paying service members beyond their
HHG weight entitlement or ensures the Services identify excess costs for
recoupment. Alternatively, Figure 2 depicts the service member performing a
personally procured move before, or in conjunction with a legacy system move.

Figure 2. Multiple Shipments Using a Personally Procured Move Before a Legacy
System Move
  Personally Procured Move            Legacy System Move              No Visibility in Systems
 •	 Service member moves          •	 Service member                •	 Transportation office
    5,000 pounds through a           requests movement                personnel have no
    personally procured move.        of an additional 9,000           visibility in DPS or TOPS
    Data is entered into DPS.        pounds and shipping              of the overpayment
                                     office personnel book the        for moving the excess
 •	 Service reimburses service       shipment using a legacy          3,000 pounds.
    member for moving                system move in TOPS.
    5,000 pounds.                                                  •	 Therefore, there is no
                                  •	 Service pays transportation      identification of the
 •	 Service member has               service provider to move         service member’s debt
    6,000 pounds of                  9,000 pounds even though         to the Government.
    remaining entitlement.           remaining entitlement is
                                     6,000 pounds.




                                                                                                  DODIG-2014-076│ 11
Finding



                 When a service member conducts a personally procured move before a legacy
                 system move, the Services automatically pay the transportation service provider for
                 any HHG weights moved. However, DPS did not have the final HHG weights for
                 the legacy system move that would be necessary to alert the transportation
                 officer that a service member exceeded their maximum weight entitlement.
                 Therefore, the Government would overpay for excess HHG weight, and the
                 overpayment would require recoupment. As a result, the likelihood may be higher
                 that the Services did not identify and recoup excess payments service members
                 owed to the Government.


                 System Upgrades and Army Oversight Needed
                 USTRANSCOM planned DPS upgrades, and the Army did not have oversight
                 functions that monitored excess HHG weights for legacy system multiple
                 shipments. USTRANSCOM planned DPS upgrades that will
                 integrate legacy system moves into DPS, which will
                                                                                                       The Army
                 provide the HHG weight data necessary to calculate
                                                                                                     did not have
                 excess     costs     paid      by      the     Government       on            personnel responsible
                 behalf     of      service     members.          According      to              for identifying and
                                                                                            initiating collection actions
                 contract  HC1028‑08‑D‑2016, the DPS contractor
                                                                                             for service members that
                 must     provide     these     upgrades        no    later   than            exceeded HHG shipping
                 June 2017. The Army did not have personnel                                   entitlements for legacy
                 responsible for identifying and initiating collection                             system multiple
                                                                                                      shipments.
                 actions for service members that exceeded HHG
                 shipping        entitlements     for        legacy   system     multiple
                 shipments.       According     to      an     Army    Headquarters       Traffic
                 Management Specialist, the Army relied on the Defense Finance and Accounting
                 Service Excess Cost Adjudication Office to identify and recoup excess costs for
                 legacy    system      multiple      shipments.       However,       according      to   the   lead   Army
                 transportation assistant in that office, she did not identify overpayments for
                 shipments involving personally procured moves, which is necessary to identify
                 excess costs for legacy system multiple shipments. Finally, she stated that the
                 local transportation offices would need to calculate the excess costs associated
                 with the personally procured move.

                 Personnel from Naval Supply Systems Command, Air Force Personal Property
                 Headquarters, and the Marine Corps Logistics Command Comptroller stated that
                 they had personnel responsible for identifying and initiating collection action
                 for service members exceeding their HHG shipping entitlements. Naval Supply




12 │ DODIG-2014-076
                                                                                           Finding



Systems Command personnel stated that the Navy’s HHG Audit Division used
the Personal Property Transportation Audit System to flag service members for
audit when the service members executed more than one shipment of any
type. Furthermore, Naval Supply Systems Command personnel stated that if the
HHG Audit Division determined the Navy paid excess costs, the HHG Audit
Division initiated a collection action via the personnel support detachment and
Defense Finance and Accounting Service. Similarly, Air Force Personal Property
Headquarters personnel stated that the Excess Cost Adjudication Function ran
monthly queries in DPS to identify all Air Force service members who exceeded
their HHG shipping entitlements, calculated the excess amount, and forwarded
that amount to the local Finance Services Office or the Defense Finance and
Accounting Service for collection. Finally, Marine Corps personnel stated that
certifiers in the Transportation Voucher Certification Branch pulled all move types
for each PCS order to calculate a service member’s total HHG weights and identify
any excess costs that needed recoupment.

Until USTRANSCOM implements the DPS upgrades, the Army should track all
legacy system multiple shipments and implement policies to ensure Army
personnel identify and recoup any excess costs the Government paid. The Army
should implement controls requiring that overpayments, made for service
members exceeding their maximum HHG weight entitlements for legacy system
multiple shipments, are tracked and forwarded to the appropriate entity
for recoupment.


The Services Could Reduce Domestic Shipment
and Storage Costs for Household Goods Weighing
1,000 Pounds or Less
The Services could reduce costs if shipping office personnel select the most
cost-effective method to accomplish domestic moves weighing 1,000 pounds or less.
Shipping office personnel had the option to book domestic shipments and storage
for HHG weighing 1,000 pounds or less in DPS or through a direct procurement
method contract in TOPS. Moves booked in DPS weighing 1,000 pounds or less
are required to be shipped and stored at a 1,000-pound rate. The direct
procurement method contracts allow flexibility to ship and store HHG at a
500-pound rate versus the 1,000-pound minimum rate established in DPS.




                                                                                  DODIG-2014-076│ 13
Finding



                 Based on data provided by the Air Force Joint Personal Property Shipping Office
                 Chief for Customer Information Management, in 2013, shipping office personnel
                 used DPS to book approximately $21.3 million6 of HHG shipments weighing
                 1,000 pounds or less.


                 Most Cost-Effective Option Not Always Used
                 Shipping office personnel did not always select the most cost-effective option for
                 shipping and storing HHG weighing 1,000 pounds or less. For example,

                               •	 An Army service member estimated his HHG shipment at 1,000 pounds
                                   although the actual HHG shipment was only 49 pounds. Shipping office
                                   personnel booked the shipment through DPS at a cost of $1,053.28.
                                   However, if they booked the shipment using a direct procurement
                                   method contract, it could have resulted in a lower cost of $119.09.

                               •	 If the same Army service member required storage for his HHG, the
                                   49-pound shipment booked in DPS would be billed at 1,000 pounds
                                   for the storage unit. However, if shipping office personnel booked the
                                   shipment using a direct procurement method contract, the storage
                                   would be billed at 500 pounds.

                 Therefore, when determining the most cost-effective method for domestic
                 shipments weighing 1,000 pounds or less, shipping office personnel should
                 consider both the shipment and storage costs associated with the HHG move.

                 However, shipping office personnel, in some cases, did use the most cost-effective
                 method for shipping HHG weighing 1,000 pounds or less. For example, according
                 to the Army, it had the opportunity to annually combine small shipments for the
                 Army’s West Point graduates. According to the Army, over the last 3 years, it
                 achieved $3.4 million in savings when using a direct procurement method
                 contract to move graduates’ HHG. Specifically, they moved 2,050 HHG shipments,
                 each weighing 1,000 pounds or less, at a cost of approximately $261 per shipment
                 versus $1,900 per shipment if booked through DPS.




                 	6	
                       According to the Air Force, the Services booked 15,613 PCS moves weighing 1,000 pounds or less in DPS. The $21.3 million
                       does not include 2,639 PCS moves not invoiced yet.




14 │ DODIG-2014-076
                                                                                                      Finding



No Requirement to Compare Costs
Shipping office personnel did not always use the most cost-effective method
because Service policies did not require shipping office personnel to compare costs
when shipping and storing domestic HHG weighing 1,000 pounds or less.
An Army Headquarters Traffic Management Specialist, Naval Supply Systems
Command personnel, and the Air Force Headquarters Division Chief for Personal
Property Policy stated that they rely on the judgment and expertise of their
shipping office personnel to determine the most cost-effective method for booking
shipments. They stated that requiring shipping office personnel to compare costs
would be labor intensive and costly and provide little benefit. Specifically, Naval
Supply Systems Command personnel stated that it would be difficult to analyze
costs because legacy system moves consist of three transportation service
providers    with    separate     costs,   including   packaging,   shipping,   and   delivery
contractors. However, they also stated that if shipping office personnel input a legacy
system move in TOPS, it would provide an estimated cost for the packaging and
shipping segments of the move.

We recognize that some direct procurement method‑contracted moves were
not always the most cost‑effective method and, because shipping office personnel
book the shipments based on estimated weights, there was potential for a service
member’s actual weight to be less. However, shipping
office personnel should still compare initial costs                    Without a
based on the data available at the time they                       cost comparison,
book the HHG shipments. Without a cost                            the Services cannot
                                                              ensure that shipping office
comparison, the Services cannot ensure that
                                                              personnel booked the most
shipping office personnel booked the most                      cost-effective method for
cost-effective method for shipping and storing                   shipping and storing
HHG weighing 1,000 pounds or less and                               HHG weighing
                                                                     1,000 pounds
as   a   result,    DoD   could    pay     higher   costs.              or less.
USTRANSCOM officials stated that they plan to
integrate legacy system moves from TOPS into DPS
but estimate that the change will not be effective until June 2017. The Services
should establish interim policy to ensure shipping office personnel use the
most cost‑effective shipping and storage methods for domestic shipments weighing
1,000 pounds or less to reduce costs to DoD.




                                                                                             DODIG-2014-076│ 15
Finding



                 DoD Could Reduce Costs by Limiting Excessive Weight
                 Allowances During Local Moves
                 DoD could reduce costs by imposing shipping weight limits on HHG for certain
                 types of local moves. The JFTR does not impose shipping weight limits on service
                 members who execute local moves at the convenience of the Government,
                 including those related to separations and retirements. The JFTR, Volume 1,
                 Chapter 5, Part D, Section 5, “Local Short Distance Moves,” Section 6, and
                 Section 7, entitles service members to move unlimited HHG weights for local
                 moves related to:

                               •	 assigning           or     terminating            Government-controlled                     quarters         or
                                   privatized housing,

                               •	 vacating local economy quarters at the direction of competent authority,

                               •	 vacating local economy quarters upon involuntary tour extension,

                               •	 vacating Government-controlled quarters or privatized housing upon
                                   separation or relief from active duty, and

                               •	 vacating Government-controlled quarters or privatized housing before
                                   selecting a home.

                 Conversely, section 476, title 37, United States Code (37 U.S.C. § 476 [2011]) and
                 JFTR, Volume 1, Chapter 5, Part D, Section 1 entitle service members to move a
                 maximum HHG weight allowance based on rank and whether the service member
                 has dependents. According to 37 U.S.C. § 476 (2011) and the JFTR, the maximum
                 HHG allowance for PCS moves is 18,000 pounds.


                 Local Moves Exceeded Permanent Change of Station
                 Weight Allowances
                 DoD paid for local move HHG shipments that exceeded the weight limits of PCS
                 moves. The Army and Air Force provided six examples of local moves that
                 exceeded weight allowances for PCS moves. Based on the examples provided, DoD
                 incurred a total excess cost of approximately $9,484 for these moves by allowing
                 the service members to move 28,058 pounds more than their normal entitlement
                 would be for PCS moves per the JFTR. DoD paid approximately $6,591 with PCS
                 funds7 and paid the remaining $2,893 with Operation and Maintenance funds.

                 	7	
                       According to the Office of the Deputy Assistant Secretary of Defense for Transportation Policy and the Services, local moves
                       that result from PCS orders related to retirement and separation are funded using PCS funds. Otherwise, local moves are
                       funded using Operation and Maintenance funds.



16 │ DODIG-2014-076
                                                                                                 Finding



The Air Force also provided an example of a local move that exceeded the
weight allowances for PCS moves. In 2011, a service member executed a local
move shipping 75,100 pounds of HHG at a cost to DoD of approximately $34,246.
Under the JFTR-established PCS weight limits, the service member would have
only been entitled to move 13,000 pounds of HHG for a PCS move. If the JFTR
PCS weight limits were in place for this local move, the cost to DoD would have
been approximately $6,240. By not imposing a weight limitation, DoD incurred
an excess cost of approximately $28,000 for this move. As a result, DoD may be
spending more than necessary on shipping costs for local moves.


No Weight Limits for Some Local Moves
DoD allowed higher weights for local moves than PCS moves because the JFTR did
not impose weight limitations for some local moves. According to the Office of the
Deputy Assistant Secretary of Defense for Transportation Policy, DoD should not
penalize service members by making them responsible for the excess HHG costs
associated with directed local moves at the convenience of the Government.
We recognize that these moves may warrant some flexibility; however, DoD
could reduce the costs of some local moves by establishing weight allowances.

While the direct impact to the PCS Program is unknown, DoD risks paying excessive
costs associated with local moves not subject to HHG weight limitations compared to
moves that are limited by a service member’s normal PCS entitlement
for HHG shipments. In addition, when a service member
executes a local move upon separation or retirement from                DoD
active duty, the JFTR entitles the service member to one            risks paying
                                                                   excessive costs
additional move to their selected home within either
                                                                associated with local
180 days or 1 year of active duty termination. However,          moves not subject
the final move is subject to the service member’s PCS              to HHG weight
HHG weight limit entitlement per the JFTR. In these                  limitations.
cases, the unlimited local move further increased the cost to
DoD. Because these local moves are not subject to weight limits, they
may have a negative impact on Service operating budgets. DoD should update the
JFTR to establish and impose a reasonable weight limit to HHG shipments for local
moves executed at the Government’s convenience, allowing for waivers on a case-
by-case basis. DoD should also identify reasons for which a waiver may be granted.




                                                                                        DODIG-2014-076│ 17
Finding



                 More Cost-Effective Transportation Options are
                 Available for Overseas Permanent Change of
                 Station Travel
                 DoD         could       achieve        cost     savings        for     PCS      moves        by      using      commercial
                 transportation instead of Patriot Express charter flights and reducing the number
                 of charter flights, if warranted. DTR, Part I, “Passenger Movement,” August 30, 2012,
                 requires that all outside the continental United States travelers use the Patriot
                 Express flights, unless a documented negative impact to the mission exists.
                 Additionally, the policy states that travelers should use Patriot Express even if the
                 service can be provided at less cost by a commercial carrier, or if commercial air
                 service is more convenient to the traveler. According to USTRANSCOM officials, the
                 Patriot Express Program was established to enhance readiness and force protection
                 for our service members. In addition, they stated that the program improves the
                 quality of life and provides increased passenger service benefits.


                 U.S. Transportation Command Does Not Include All Associated
                 Travel Costs When Evaluating a Channel
                 USTRANSCOM does not include all associated travel costs when evaluating
                 channels8 or cost-effectiveness. In accordance with DTR, Part I, Appendix  K,
                 “Establishing, Changing, Suspending, and Cancelling Air Mobility Command (AMC)
                 Channels,” November 30, 2010, USTRANSCOM determines which channels to
                 add, discontinue, or scale back. In 2001, the commander for USTRANSCOM and
                 Air Mobility Command streamlined the Patriot Express Program and eliminated
                 channels USTRANSCOM no longer considered cost efficient and where the
                 General Services Administration (GSA) had established a Government fare. According
                 to USTRANSCOM, the Patriot Express Program reported an average loss of
                 $35.8 million per year for the 5 years before Operation Iraqi Freedom, which led
                 to USTRANSCOM restructuring the program and eliminating channels to Germany,
                 Korea, Japan, and Italy. In 2005, USTRANSCOM began the 4-year restructuring
                 plan to decrease Patriot Express missions. Also during that time, a new
                 commander took over and directed efforts to identify opportunities to expand the
                 Patriot Express Program. The new commander wanted to increase DoD traveler
                 opportunities and ridership by evaluating the channel performance, including costs,
                 as a whole rather than by each specific channel. In August 2011, the Commanding


                 	 8	
                        A channel is a route between a specific origin and destination executed using USTRANSCOM-contracted airlift for travel
                        outside the continental United States.




18 │ DODIG-2014-076
                                                                                                          Finding



General, U.S. Army Europe, and the Vice Commander, U.S. Air Forces in Europe,
submitted a joint request to reestablish the Patriot Express channel to Germany,
citing force protection concerns as the primary justification. As a result,
USTRANSCOM        reestablished      the        channel        between      Baltimore-Washington
International Airport and Ramstein Air Base, Germany.

DTR, Part I, Appendix K, provides guidance for establishing, changing, suspending,
and canceling Patriot Express channels. Specifically, combatant commanders
must initiate a detailed request to establish a new channel. USTRANSCOM,
Air Mobility Command, and the combatant command must ensure coordination,
provide analysis and review utilization data before establishing the channel.
The DTR further provides that Air Mobility Command will annually review all
channels. As part of that review, Air Mobility Command prepares the Channel
Passenger Performance and Analysis Report, which provides all passenger
movement by fiscal year. USTRANSCOM reviews this data annually and determines
which channels to add, discontinue, or scale back. While USTRANSCOM considers
utilization trends in its review, requests from the Services also influence
channel decisions.

Although the DTR does not require USTRANSCOM to consider costs when
evaluating channels, USTRANSCOM does perform a transportation feasibility
study to determine whether Patriot Express can service a channel economically.
However, USTRANSCOM does not include additional costs associated with getting
members to and from the Patriot Express departure points when evaluating
channels for cost‑effectiveness. We are not making a recommendation at this
time because we only reviewed the Patriot Express Program as it related to the
PCS Program. We plan to perform an audit of the entire program in the future.


The Baltimore-Washington International to Ramstein Channel
is Not Cost-Effective for Permanent Change of Station Travel
The   Services   could    achieve    cost   savings       in    the   PCS    Program    by   using
commercial transportation for the Baltimore-Washington International Airport
to Ramstein Air Base channel. The Office of the Under Secretary of Defense
(Comptroller)/Chief      Financial   Officer,     DoD,    directs     Air    Mobility   Command
passenger rates to be comparable to established Government commercial rates.
The FY 2013 USTRANSCOM Working Capital Fund Rate procedures state that,
whenever possible, USTRANSCOM should use GSA City Pair rates as the benchmark,
and Patriot Express rates were set at $1 below this rate. The FY 2014 Patriot




                                                                                                 DODIG-2014-076│ 19
Finding



                 Express rate between Baltimore-Washington International Airport and Ramstein
                 Air Base is valued at $1,122. According to the FY 2013 Channel Passenger
                 Performance and Analysis report, Army and Air Force personnel primarily travel
                 this channel. Table 1 shows the excess costs incurred to fly Patriot Express
                 for the eight most frequently traveled routes by Air Force personnel versus
                 flying          commercially      using      the     established     GSA       City        Pair    rate.

                 Table 1. Excess Costs Incurred Using Patriot Express Over Commercial Transportation
                                          Patriot Express       GSA City Pair
                                          Rate Between         Rate Between        GSA City Pair
                                            Baltimore-        Passenger Origin     Rate Directly        Excess Costs
                      Frequent Origins      Washington         and Baltimore-        Between             Incurred*
                                           International         Washington      Passenger Origin
                                            Airport and         International      to Frankfurt
                                             Ramstein              Airport
                      Atlanta                 $1,122                $175             $685                   $612
                      Colorado Springs          1,122               242               733                    631
                      Los Angeles               1,122               303               515                    910
                      New York                  1,122               152               363                    911
                      Norfolk                   1,122               200               524                    798
                      San Antonio               1,122               224               461                    885
                      Seattle                   1,122               274               980                    416
                      Tampa                     1,122               210               599                    733
                  * We calculated the excess costs the Services incurred by adding the Patriot Express rate between
                    Baltimore-Washington International Airport and Ramstein Air Base to the GSA City Pair rate from
                    the passenger’s origin to Baltimore-Washington International Airport. We then subtracted the cost
                    of the GSA City Pair rate leaving directly from the passenger origin to Frankfurt.


                 The Patriot Express flights between Baltimore-Washington International Airport
                 and Ramstein Air Base were more expensive to the PCS Program than
                 commercial flights to Frankfurt, Germany for all eight frequently traveled routes.

                 USTRANSCOM relies on the entire Patriot Express Program to support those
                 important channels of low use. According to USTRANSCOM, in FY 2013, the
                 channel between Baltimore-Washington International Airport and Ramstein Air
                 Base           experienced     substantial    ridership,    which     offset       costs    to    other
                 underutilized channels. USTRANSCOM paid approximately $14.9 million to
                 operate the channel and collected approximately $16.7 million in revenue from
                 the Services, resulting in a gain of approximately $1.8 million to the Patriot
                 Express Program. While this channel is a significant contributing factor to the
                 apparent success of the Patriot Express Program, DoD may achieve additional




20 │ DODIG-2014-076
                                                                                                   Finding



cost savings in the PCS Program by using commercial transportation for flights
to Germany and possibly for other routes. Although USTRANSCOM annually
reviewed the channels, the reviews did not include additional flight costs from
the origin to Baltimore-Washington International Airport, or additional per diem
and hotel costs because of the timing of flights.


DoD Missed Opportunities for Cost Savings
DoD missed opportunities for cost savings in the PCS Program by not ensuring
that   PCS   travelers   used   the   most    cost-effective   and   efficient   mode    of
transportation for all overseas PCS moves to Germany.
DoD may achieve cost savings in the PCS Program by                        DoD
considering additional flight and per diem costs when                 may achieve
annually reviewing channels. While we understand                     cost savings in
                                                                 the PCS Program by
that a significant percentage of travel on Patriot
                                                                considering additional
Express flights is for PCS, we also acknowledge that              flight and per diem
the program is not only used for that purpose.                   costs when annually
Because of the scope and timing of this audit, we did                  reviewing
                                                                       channels.
not perform an overall evaluation of the Patriot Express
Program to determine whether it is cost‑effective to the
Department as a whole. We plan to perform a comprehensive audit of the program
in the future. DoD should evaluate the cost-effectiveness of using Patriot Express
channels for PCS travel, including the cost of any associated travel costs, and
compare to the costs of commercial flights from the nearest international airport to
the service member’s current duty station. Additionally, pending the results of
the review, USTRANSCOM should take appropriate action to reduce the number of
Patriot Express missions flown to account for the reduction in PCS use if warranted.


DoD Could Reduce Household Goods Shipping Costs by
Implementing a Statutory Incentive
DoD may further reduce PCS costs by implementing a statutory incentive that
would share savings with service members when they voluntarily reduce the
weight of shipped HHG. Even though more than 13 years have passed since
Congress introduced and enacted the law, DoD did not implement the statutory
incentive. DoD must take full advantage of every opportunity to gain efficiencies
and implement cost savings throughout the PCS Program.




                                                                                          DODIG-2014-076│ 21
Finding



                 Public Law 106-398, “National Defense Authorization, Fiscal Year 2001,”
                 October 30, 2000, introduced a statutory plan aimed at providing an incentive to
                 service members to minimize the weight of HHG shipments. In 2000, Congress
                 enacted the statutory incentive into law within section 406, title 37, United States
                 Code, since renumbered to section 476 (37 U.S.C. § 476 [2011]). The incentive
                 permits the Service Secretaries to pay a service member a share of the money
                 the Government saves when the total weights of the service member’s HHG shipped
                 and stored are less than the average weights of those shipped and stored by
                 other service members with the same grade and comparable PCS circumstances.

                 According to the Navy’s 2009 Military Advisory Panel representative to the
                 Per Diem, Travel and Transportation Allowance Committee, DoD did not implement
                                             the incentive plan because DoD personnel could not
                                                    determine how to meet the intent of the law.
                               DoD missed             DoD missed opportunities for cost savings
                            opportunities for
                                                       related to PCS moves because DoD personnel
                         cost savings related to
                        PCS moves because DoD           did not implement the statutory incentive
                      personnel did not implement       and encourage service members to minimize
                         the statutory incentive        the weight of HHG. In this time of uncertainty
                         and encourage service
                                                        and   shrinking   budgets,   DoD   must   take
                         members to minimize
                           the weight of HHG.          full advantage of every opportunity to gain
                                                     efficiencies and implement cost savings throughout
                                               the PCS Program. DoD should convene a working
                 group to study the feasibility of implementing the statutory incentive to
                 encourage service members to minimize the weight of HHG shipments.


                 Ongoing and Planned Initiatives to Reduce Costs and
                 Improve the Permanent Change of Station Program
                 DoD and the Services implemented or plan to implement various initiatives to
                 reduce costs and improve the PCS Program. During our audit, we received details
                 about these initiatives.


                 Under Secretary of Defense for Personnel and Readiness
                 According to the explanatory statement accompanying the “Department of
                 Defense, Military Construction and Veterans Affairs, and Full-Year Continuing
                 Appropriations Act, 2013,” Congress recognized that potential cost savings could
                 be found in the PCS Program. As such, it directed the USD(P&R) to review the




22 │ DODIG-2014-076
                                                                                                 Finding



PCS Program to identify potential efficiencies and submit a report to the
congressional defense committees on the findings. USD(P&R) contracted with
the RAND Corporation to conduct the review. Congress requested that the report,
due September 2014, include a review of the reasons that the Services have
not met the increased time on station goals and a plan to achieve them, including
the budget efficiencies that DoD can gain by increased tour lengths. In addition,
Congress requested that DoD consider the potential impact of increased tour
lengths on service members’ job performance and on morale and quality of life for
service members and their families. The review should also include how a change
in policy would affect promotion and professional development opportunities,
personnel readiness, and quality of life issues for service members serving in
hardship or overseas locations. Pending the results of the review, USD(P&R)
may   recommend     adjusting   tour   lengths   and   identifying   any   cost   savings
associated with increasing tour lengths. Because of the future RAND report, we
did not review the potential for savings associated with increasing tour lengths.

The Per Diem, Travel and Transportation Allowance Committee established
policy to limit the amount of professional books, papers, and equipment to a
maximum net weight of 2,000 pounds with no authority to waive the limitation.
The committee established the limitation to prevent abuse by the service members
and to provide future savings to the PCS Program.


U.S. Transportation Command
USTRANSCOM plans to expand the capability of DPS through FY 2018. According
to USTRANSCOM, the expanded DPS capabilities will include incorporating NTS,
direct procurement method contracts, and intra-country moves. Additionally,
the planned upgrades include system change requests to integrate legacy system
moves and provide flexibility in booking joint spouse moves together.
USTRANSCOM predicts that the opportunity for savings will increase as DPS
reaches full operating capability by FY 2018 and projects the total estimated
cost avoidance from using DPS through FY 2018 at $600 million.


Personal Property Shipping Offices
According to the Joint Services Team’s draft “Personal Property Shipping
Office (PPSO) Consolidation Implementation Plan,” November 2013, a planned
shipping office consolidation effort includes increasing logistics efficiency for the
PCS Program. Through regionalization, the Joint Services Team plans to consolidate




                                                                                        DODIG-2014-076│ 23
Finding



                 operations (for example, routing, booking, shipment management, and invoice
                 processing) at shipping offices to improve the efficiency of operations, reduce costs,
                 and eliminate redundant infrastructure while maintaining high-quality customer
                 service. According to the draft consolidation plan, the effort is set for completion
                 by December 31, 2018.


                 Army
                 Under the guidance of the Army’s Office of Business Transformation, the Army
                 plans to replace redundant information technology systems and parallel processes
                 to gain efficiencies. The Director, Army Office of Business Transformation, stated
                 the Army did not have a standard order writing system covering PCS, temporary
                 change of station, and other non-Defense Travel System travel that was efficient,
                 auditable, and supportive. He stated that the Army identified the Department
                 of the Army Mobilization Processing System as an interim travel order writing
                 solution. According to the Army’s October 23, 2013, decision brief, the Army
                 estimates a financial benefit of between $86 million to $112 million by
                 implementing the interim solution. Finally, according to the director, the Army plans
                 on securing funds in April 2014 and the testing and evaluation phase should be
                 complete within 1 year of funding.

                 According to the Director of Plans and Resources – Army G-1, the Department of
                 the Army experienced an Antideficiency Act violation in 2008 and elevated internal
                 controls for active component PCS orders to a Department-level material
                 weakness, ultimately leading to a Lean Six Sigma effort. As the project sponsor,
                 the director stated that the Army is making considerable progress to clear this
                 material weakness and achieve auditable financial statements by the end of
                 FY 2014. Additionally, he stated that new processes will allow the Army to
                 record PCS orders when issued, apply a reliable cost estimate, and reconcile
                 subsequent disbursements to existing obligations. Furthermore, he stated that
                 these improvements will increase the fidelity of accounting data, improve the basis
                 for future budget requests, and help the Army identify areas where future
                 efficiencies can be realized. According to the director, as a result of the Army’s
                 efforts, the Army identified areas for potential savings opportunities within the
                 Army PCS Program, including the HHG and personal property weight thresholds,
                 NTS, privately owned vehicles, and improvements to debt management. Finally,
                 he stated that as of March 2014, the Army has asserted that the identified
                 material weaknesses have been corrected, and the Army Audit Agency is
                 currently validating the assertion.




24 │ DODIG-2014-076
                                                                                              Finding



Navy
In 2011, the Navy implemented an NTS termination policy for retirees and
separatees. The policy states that all NTS accounts must convert to the service
member’s expense upon the 6-month (separatees) or 1-year (retirees) expiration
of entitlement. This includes current NTS lots, for which the Navy already
extended time limits. We discussed this initiative in more detail on report page 9.


Navy and Marine Corps
The Marine Corps stated that it jointly developed a system change request
for DPS with the Navy to develop web-based services to provide transportation
account   codes   automatically   from    the   respective   Service’s   PCS   module.
In addition, the data will populate within DPS, and applicable users will not be
able to edit the account data. The systemic approach of recording the accounting
data within DPS will allow personnel to post more accurate accounting elements
to the accounting systems, according to the Marine Corps, and ensure that the
Navy’s and Marine Corps’ combined transportation charges, supporting HHG
movements, are properly accounted for. The Marine Corps stated this ability to
retain the accounting detail would allow the Services to provide detailed cost
data, by service member, for the PCS process.


Air Force
According to the Air Force Personnel Center, the Air Force offers its service
members “Follow-on” and “Home-Basing” programs following short tour locations
to reduce PCS costs. Follow-on assignments allow service members to select their
next assignment when returning from an overseas tour. However, Air Force
personnel stated that by selecting this program, service members are agreeing
to forego certain entitlements, such as moving their families and shipping HHG.
Home‑basing assignments allow a service member to return to the duty location
held before serving an overseas tour; thereby, eliminating the need for the
Government to incur PCS travel costs. According to the Air Force Personnel Center,
these two types of programs save about $10,000 per move.


Conclusion
Although the Services implemented or plan to implement various initiatives
designed to reduce costs and improve the PCS Program, still other opportunities
exist. DoD could gain efficiencies and realize cost savings by implementing
controls to track and manage NTS entitlements, and to transfer management and



                                                                                     DODIG-2014-076│ 25
Finding



                 financial responsibility for NTS liabilities to service members after the initial
                 entitlement period expires. Additionally, by implementing controls in the DPS
                 and at the Army, DoD could improve oversight of excess payments the Services
                 made for legacy system multiple shipments. DoD could also recognize efficiencies
                 by using the most cost-effective method to accomplish domestic moves weighing
                 1,000 pounds or less and imposing weight limitations on HHG for certain types
                 of local moves. DoD has additional opportunities to reevaluate the use of
                 commercial transportation for PCS travel instead of using Patriot Express charter
                 flights, and USTRANSCOM should take appropriate action to reduce the number
                 of Patriot Express missions flown if warranted. Finally, DoD should consider
                 implementing a statutory incentive that would share savings with service
                 members when they voluntarily reduce the weight of shipped HHG. In this time of
                 uncertainty and shrinking budgets, DoD must take full advantage of every
                 opportunity to implement cost savings throughout the PCS Program.


                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 1
                 We recommend that Under Secretary of Defense (Comptroller)/Chief Financial
                 Officer, DoD, Under Secretary of Defense for Personnel and Readiness, and the
                 Deputy Assistant Secretary of Defense for Transportation Policy, convene a
                 working group to study the feasibility of implementing the statutory incentive
                 to encourage service members to minimize the weight of household goods
                 shipments, and, pending the results of the study, develop strategy and milestones
                 for implementing the incentive.


                 Under Secretary of Defense (Comptroller)/Chief Financial Officer,
                 DoD Comments
                 The Deputy Comptroller (Program/Budget), responding for the Under Secretary of
                 Defense (Comptroller)/Chief Financial Officer, DoD, agreed, stating that the Office
                 of the Secretary of Defense will convene a working group to study the feasibility
                 of implementing the statutory incentive.




26 │ DODIG-2014-076
                                                                                                   Finding



Under Secretary of Defense for Personnel and Readiness Comments
The Assistant Secretary of Defense for Readiness and Force Management,
responding for the USD(P&R), agreed stating that he recommends USD(AT&L) lead
the effort as the office of primary responsibility and USD(P&R) participate in
the working group in a supporting role. Furthermore, he stated that USD(AT&L)
is the subject matter expert and has the data for HHG shipments.


Our Response
Comments from the Deputy Comptroller (Program/Budget) and the Assistant
Secretary of Defense for Readiness and Force Management addressed all of the
specifics of the recommendation, and no further comments are required.


Management Comments Received Late
We    received   Assistant    Secretary     of     Defense    for   Transportation   Policy
comments on the draft report too late to include them in the final report.
Therefore, if the Assistant Secretary of Defense for Transportation Policy does
not submit additional comments, we will consider those comments as the
management response to the final report.


Recommendation 2
We recommend that Under Secretary of Defense for Personnel and Readiness,
in   coordination   with     the   Deputy        Assistant   Secretary   of   Defense   for
Transportation Policy:

        a.	 Update the Joint Federal Travel Regulations to remove authority for the
           Government to continue paying for nontemporary storage lots after the
           entitlement period expires.

Under Secretary of Defense for Personnel and Readiness Comments
The Assistant Secretary of Defense for Readiness and Force Management,
responding for the USD(P&R), agreed to update the JFTR.




                                                                                          DODIG-2014-076│ 27
Finding



                 Our Response
                 Comments from the Assistant Secretary of Defense for Readiness and Force
                 Management addressed all of the specifics of the recommendation, and no
                 further comments are required.


                 Management Comments Received Late
                 We received Assistant Secretary of Defense for Transportation Policy comments
                 on the draft report too late to include them in the final report. Therefore, if the
                 Assistant Secretary of Defense for Transportation Policy does not submit
                 additional comments, we will consider those comments as the management
                 response to the final report.

                          b.	 Update the Joint Federal Travel Regulations to apply weight limitations
                            to local moves executed at the convenience of the Government and
                            not otherwise subject to prescribed limits. In addition, implement a
                            waiver process that allows for exceptions on a case-by-case basis, and
                            identifies reasons for which a waiver may be granted.

                 Under Secretary of Defense for Personnel and Readiness Comments
                 The Assistant Secretary of Defense for Readiness and Force Management,
                 responding for the USD(P&R), partially agreed stating that the JFTR change should
                 only apply to local moves for retirees and separates who are part of the PCS
                 Program. Furthermore, he stated that in the interest of fairness, and to prevent
                 hardship to members who are required to move unexpectedly, the Services
                 intentionally exempted local moves that are not part of the PCS program from
                 prescribed weight limits when executed at the convenience of the Government.
                 Finally, he stated that local moves are directed and managed locally, using
                 local operations and maintenance funds, and any savings realized would not be
                 applied to the military personnel appropriations accounts.


                 Our Response
                 Comments from the Assistant Secretary for Readiness and Force Management
                 partially addressed the specifics of the recommendation. Although local moves are
                 not subject to HHG weight limitations, in accordance with 37 U.S.C. § 476 (2011)
                 and the JFTR, PCS moves are limited to a maximum HHG weight allowance based
                 on rank and dependent status. We recognize that local moves may warrant
                 some flexibility because they are directed at the convenience of the Government.
                 Therefore, we recommended implementation of a waiver process that would



28 │ DODIG-2014-076
                                                                                              Finding



allow flexibility on a case-by-case basis. As discussed in the report, a service
member executed a local move, shipping 75,100 pounds of HHG at a cost to DoD
of approximately $34,246. Under the JFTR-established PCS weight limits, the
service member would have only been entitled to move 13,000 pounds of HHG.
If the JFTR PCS weight limits were in place for this local move, the cost to DoD
would have been approximately $6,240. By not imposing a weight limitation, DoD
incurred an excess cost of approximately $28,000 for this move. We maintain that
these local moves should be subject to a reasonable weight limit, and service
members should only be allowed to move an unlimited amount of weight in
situations where a waiver has been granted. We request that the Assistant
Secretary of Defense for Readiness and Force Management reconsider his
position on the recommendation and provide comments on the final report.


Management Comments Received Late
We received Assistant Secretary of Defense for Transportation Policy comments
on the draft report too late to include them in the final report. Therefore, if the
Assistant Secretary of Defense for Transportation Policy does not submit additional
comments, we will consider those comments as the management response to the
final report.


Recommendation 3
We recommend that the Commander, U.S. Transportation Command:

         a.	 Pending the results of Recommendation 2.a, update the Defense
            Transportation   Regulation,   Part   IV,   Chapter   406   by    removing
            language allowing the Services to continue paying for expired
            nontemporary storage lots after the initial entitlement period.

         b.	 Evaluate the cost-effectiveness of using Patriot Express channels
            for permanent change of station travel, including the cost of any
            associated travel costs, and compare to the costs of commercial
            flights from the nearest international airport to the service member’s
            current duty station.

         c.	 Pending the results of Recommendation 3.b, take appropriate action,
            if warranted, to reduce the number of Patriot Express missions flown
            to account for the reduction in permanent change of station use.




                                                                                     DODIG-2014-076│ 29
Finding



                 Management Comments Received Late
                 We received Commander, USTRANSCOM comments on the draft report too late
                 to include them in the final report. Therefore, if the Commander, USTRANSCOM,
                 does not submit additional comments, we will consider those comments as the
                 management response to the final report.


                 Recommendation 4
                 We recommend that the Deputy Chief of Staff, Army Logistics:

                         a.	 Develop quality control and standard operating procedures to ensure
                            personal   property   shipping   office   personnel   perform   quarterly
                            reviews of all nontemporary storage lots to determine whether the
                            entitlements are still valid based on the situation used to establish
                            the lot, and initiate action to convert those lots where the entitlement
                            no‑longer exists from a Government storage account to the service
                            member’s responsibility and expense.

                 Army Logistics Comments
                 The Acting Director, Force Projection and Distribution, responding for the Deputy
                 Chief of Staff, Army Logistics, agreed, stating that the Army will coordinate with
                 Army Materiel Command and Army Sustainment Command to publish a quality
                 control dashboard to monitor and track expired NTS lots, and standard
                 operating procedures to convert NTS lots at the service members’ expense.
                 The Army plans to complete these actions by July 31, 2014.


                 Our Response
                 Comments from the Acting Director, Force Projection and Distribution, addressed
                 all of the specifics of the recommendation, and no further comments are required.

                         b.	 Implement controls requiring that overpayments, made for service
                            members exceeding their maximum household good weight entitlements
                            for legacy system multiple shipments, are tracked and forwarded to the
                            appropriate entity for recoupment.

                 Army Logistics Comments
                 The Acting Director, Force Projection and Distribution, responding for the Deputy
                 Chief of Staff, Army Logistics, agreed stating that the Office of the Assistant
                 Deputy Chief of Staff, G-4 will coordinate with the Assistant Secretary of the
                 Army for Financial Management and Comptroller to provide oversight to track



30 │ DODIG-2014-076
                                                                                               Finding



service members exceeding their maximum HHG weight entitlement via multiple
shipments and ensure information is forwarded to the proper agency for
recoupment. The acting director stated that the Army interim plan of action will
be in place in 2015.


Our Response
Comments from the Acting Director, Force Projection and Distribution, addressed
all of the specifics of the recommendation, and no further comments are required.

         c.	 Establish policy requiring personal property shipping office personnel
           to determine and use the most cost-effective method to ship and
           store domestic household goods weighing 1,000 pounds or less.

Army Logistics Comments
The Acting Director, Force Projection and Distribution, responding for the Deputy
Chief of Staff, Army Logistics, agreed, stating that the Office of the Assistant
Deputy Chief of Staff, G-4 will coordinate with Army Materiel Command and
Army Sustainment Command to publish policy within 30 days of their response
to use existing direct procurement method contracts to move domestic shipments
weighing 1,000 pounds or less, when it is cost-effective and circumstances
warrant. Additionally, the Army will establish metrics by August 29, 2014,
for Army shipping offices to track the number of shipments 1,000 pounds or less
processed using the DPS shipment rates versus the direct procurement method
contract rates.


Our Response
Comments from the Acting Director, Force Projection and Distribution, addressed
all of the specifics of the recommendation, and no further comments are required.


Recommendation 5
We recommend that the Commander, Naval Supply Systems Command:

         a.	 Develop   quality   control   and   standard   operating   procedures   to
           ensure personal property shipping office personnel perform quarterly
           reviews of all nontemporary storage lots to determine whether the
           entitlements are still valid based on the situation used to establish
           the lot, and initiate action to convert those lots where the entitlement
           no longer exists from a Government storage account to the service
           member’s responsibility and expense.



                                                                                      DODIG-2014-076│ 31
Finding



                 Naval Supply Systems Command Comments
                 The Commander, Naval Supply Systems Command, agreed, stating that in
                 March 2011, the Navy updated internal guidance to implement a NTS termination
                 policy that directs personal property shipping office personnel to convert NTS lots
                 to member expense upon expiration of entitlement. The commander also stated
                 that the current standard operating practice is for personal property shipping
                 office personnel to identify expired NTS lots on a quarterly basis and convert the
                 expired NTS lots to member expense.


                 Our Response
                 Comments from the Commander, Naval Supply Systems Command, partially
                 addressed the specifics of the recommendation. While the commander agreed
                 with the recommendation and stated that the quarterly reviews were standard
                 practice, he did not state whether he would implement quality assurance and
                 standard operating procedures to make sure the personal property shipping
                 office personnel performed the quarterly reviews. We request that the
                 Commander, Naval Supply Systems Command, provide additional comments on
                 the final report.

                          b.	 Establish     policy   requiring    personal     property     shipping    office
                             personnel to determine and use the most cost-effective method to ship
                             and store domestic household goods weighing 1,000 pounds or less.

                 Naval Supply Systems Command Comments
                 The Commander, Naval Supply Systems Command, agreed, stating that the Naval
                 Supply System Command will issue a change to the Naval Supply System
                 Command      P-490,      “Transportation   of   Personal    Property,”   directing   personal
                 property shipping office personnel to use the most cost-effective method to ship
                 and store domestic household goods weighing 1,000 pounds or less. The
                 commander stated the target completion date was December 31, 2014.


                 Our Response
                 Comments from the Commander, Naval Supply Systems Command, addressed all
                 of the specifics of the recommendation, and no further comments are required.




32 │ DODIG-2014-076
                                                                                                        Finding



Recommendation 6
We recommend that the Director, Headquarters Air Force Logistics:

        a. Develop quality control and standard operating procedures to ensure
           personal    property   shipping         office      personnel    perform    quarterly
           reviews of all nontemporary storage lots to determine whether the
           entitlements are still valid based on the situation used to establish
           the lot, and initiate action to convert those lots where the entitlement
           no longer exists from a Government storage account to the service
           member’s responsibility and expense.

Headquarters Air Force Logistics Comments
The Deputy Director, Headquarters Air Force Logistics, responding for the
Director, Headquarters Air Force Logistics, agreed, stating that the Air Force took
corrective action to update the Air Force Operating Instructions to address the
quality controls and performance of quarterly reviews of NTS lots and to initiate
action to convert expired NTS lots that are no longer covered by an existing
entitlement.   The    deputy   director        stated   this     action    was   completed   on
April 22, 2014.


Our Response
Comments from the Deputy Director, Headquarters Air Force Logistics, addressed
all of the specifics of the recommendation, and no further comments are required.

        b. Establish policy requiring personal property shipping office personnel
           to determine and use the most cost-effective method to ship and
           store domestic household goods weighing 1,000 pounds or less.

Headquarters Air Force Logistics Comments
The Deputy Director, Headquarters Air Force Logistics, responding for the
Director, Headquarters Air Force Logistics, agreed stating that the Air Force
updated the Air Force Supplement to the JFTR to add policy to use direct
procurement       method   contracts      to     move       domestic       shipments   weighing
1,000 pounds or less when cost‑effective and circumstances warrant. The
deputy director stated this action was completed on April 22, 2014.




                                                                                               DODIG-2014-076│ 33
Finding



                 Our Response
                 Comments from the Deputy Director, Headquarters Air Force Logistics, addressed
                 all of the specifics of the recommendation, and no further comments are required.


                 Recommendation 7
                 We recommend that the Director, Marine Corps Logistics Plans, Policy, and
                 Strategic Mobility:

                         a. Develop quality control and standard operating procedures to ensure
                            personal    property   shipping   office   personnel   perform    quarterly
                            reviews of all nontemporary storage lots to determine whether the
                            entitlements are still valid based on the situation used to establish
                            the lot, and initiate action to convert those lots where the entitlement
                            no longer exists from a Government storage account to the service
                            member’s responsibility and expense.

                 Marine Corps Logistics Plans, Policy, and Strategic Mobility Comments
                 The Staff Director, Headquarters Marine Corps, responding for the Director,
                 Marine Corps Logistics Plans, Policy, and Strategic Mobility, agreed stating that
                 the Marine Corps Logistics Plans, Policy, and Strategic Mobility will establish and
                 implement a policy message within 30 days of the response to conduct a review
                 of all NTS lots and initiate quarterly reviews of all NTS lots managed
                 by   Marine    Corps   Personal   Property   Offices.   The   staff   director   stated
                 Marine Corps Personal Property Office conversion of NTS lots will take up to
                 120 days for completion of corrective action from the date of the policy message
                 to ensure all NTS lots meeting the criteria are reviewed and resolved. He further
                 stated that the Marine Corps supports a change to the DTR, Part IV, Personal
                 Property for this requirement, and the Marine Corps Order 4600.39 will be updated
                 to reflect DTR policy changes.


                 Our Response
                 Comments from the Staff Director, Headquarters Marine Corps, addressed all
                 of the specifics of the recommendation, and no further comments are required.




34 │ DODIG-2014-076
                                                                                            Finding



        b.	 Establish   policy   requiring   personal   property   shipping   office
          personnel to determine and use the most cost-effective method to ship
          and store domestic household goods weighing 1,000 pounds or less.

Marine Corps Logistics Plans, Policy, and Strategic Mobility Comments
The Staff Director, Headquarters Marine Corps, responding for the Director,
Marine Corps Logistics Plans, Policy, and Strategic Mobility, agreed, stating that
the Marine Corps Logistics, Plans, Policy, and Strategic Mobility Directorate will
coordinate and release a policy message within 30 days of the response directing
Marine Corps Personal Property Offices to compare the direct procurement
method contract rates against the DPS rates to ensure the most cost‑effective
rate is used, whenever practicable. Additionally, the staff director stated that
the Marine Corps supports a change to the DTR, Part IV, Personal Property, to
codify this requirement, and changes reflecting this policy will be incorporated
into the new Marine Corps Order 4600.39.


Our Response
Comments from the Staff Director, Headquarters Marine Corps, addressed all
of the specifics of the recommendation, and no further comments are required.




                                                                                   DODIG-2014-076│ 35
Appendixes




                 Appendix A
                 Scope and Methodology
                 We conducted this performance audit from October 2013 through April 2014
                 in accordance with generally accepted government auditing standards. Those
                 standards require that we plan and perform the audit to obtain sufficient,
                 appropriate evidence to provide a reasonable basis for our findings and conclusions
                 based on our audit objective. We believe that the evidence obtained provides a
                 reasonable basis for our findings and conclusions based on our audit objective.

                 Because   of   congressionally   mandated   timelines,    we   only      identified   where
                 opportunities for cost savings and efficiencies existed within the PCS Program.
                 We did not have time to quantify potential savings.

                 To accomplish our objective, we reviewed DoD and the Services’ implementation
                 of the PCS Program. Specifically, we reviewed how the Services developed cost
                 estimates for PCS moves, how the Services executed the PCS Program, and how
                 DoD supported the PCS Program using contracts.


                 Review of Documentation and Interviews
                 To understand the PCS Program, we reviewed 37 U.S.C § 476 (2011);
                 Public Law 113-76, “Consolidated Appropriations Act, 2014,” January 17, 2014;
                 DoD    Directive    4500.09E,     “Transportation        and   Traffic      Management,”
                 September 11, 2007; DoD Instruction 4500.57, “Transportation and Traffic
                 Management,” March 2008, Enclosure 3, “Air Transportation;” JFTR, Volume  1,
                 “Uniformed     Service    Members;”      DoD     Regulation      4500.9-R,        “Defense
                 Transportation Regulation,” Part I, “Passenger Movement,” November 2010, and
                 Part IV, “Personal Property,” August 2013; and applicable Service guidance.


                 Cost Estimates
                 We reviewed policies, regulations, and the Services’ budget and financial report
                 data to determine the estimated costs and amount of PCS travel appropriations
                 the Services had available for obligation during FY 2013. We also reviewed
                 “Accounting Report Monthly 1002” reports provided by the Office of the Under
                 Secretary of Defense (Comptroller)/Chief Financial Officer, DoD. To determine
                 DoD’s FY 2014 PCS travel estimates, we used the DoD Military Personnel




36 │ DODIG-2014-076
                                                                                             Appendixes



Programs (M-1), “Department of Defense Budget, Budget Amendment to the
Fiscal Year 2014 President’s Budget Request for Overseas Contingency Operations
(OCO),” May 2013. We also reviewed Public Law 113-76, to determine reductions
to the Services’ FY 2014 PCS travel funds.

We interviewed Under Secretary of Defense (Comptroller)/Chief Financial Officer,
DoD personnel, Service budget personnel, and military career managers to
determine the methodologies and processes the Services used to estimate the
number of PCS travel moves, and develop the related budget and cost estimates.
We examined documentation the Navy provided on the linear regression model
it   uses   in   predicting   out-year   operational,   rotational,   and   training   PCS
travel requirements.


Execution and Entitlements
We interviewed or visited the Services’ personnel commands to understand
the assignment instructions and the PCS order writing processes. We evaluated
the process for determining available billets against the commands’ requirements
and end‑strengths and the process necessary to determine which service member to
move; and reviewed the time on station requirements versus service member’s
projected rotation date and waiver process. We also reviewed the process to
authenticate and approve PCS orders, and the process the Services use to perform
quality assurance and funding reviews of PCS orders. During our site visits, we
interviewed finance personnel to obtain information on the PCS entitlement
and voucher processes to include preparation, approval, and quality assurance.

We obtained a universe of NTS lots from the Air Force Joint Personal Property
Shipping Office Chief for Customer Information Management. We reviewed active
NTS lots for active duty, separated, and retired service members from the TOPS
database as of February 24, 2014. From the universe, we totaled the number of
active NTS lots and associated dollar values that the Services identified as expired
for active duty, separated, and retired service members. We reviewed the expired
NTS lots and selected examples from the listing. We coordinated with Naval Supply
Systems Command personnel and obtained Navy NTS costs from the Standardized
Accounting and Reporting System-Field Level and Cash History On-Line Operator
Search Engine.




                                                                                         DODIG-2014-076│ 37
Appendixes



                 We conducted site visits to shipping offices to obtain information on the
                 movement and storage of HHG. We evaluated the shipping office process for
                 service members performing legacy system multiple shipments. This included
                 gaining an understanding of personally procured moves and legacy system moves,
                 as well as determining the payment and reimbursement process for legacy
                 system multiple shipments. We reviewed DPS controls to determine whether
                 DPS identified excess payments on overweight legacy system multiple shipments.
                 In addition, we discussed the Services’ recoupment procedures for amounts owed
                 by service members to DoD.

                 Finally, we interviewed shipping office personnel and determined the DPS and
                 direct procurement method shipping selection processes for domestic HHG
                 shipments weighing 1,000 pounds or less. We obtained a universe of 2013 DPS
                 HHG shipments weighing 1,000 pounds or less from the Air Force Joint
                 Personal Property Shipping Office Chief for Customer Information Management.
                 From the 2013 universe, we totaled the number of moves and associated
                 dollar values. We also sorted the data to determine the number of moves that
                 did not have dollar values because the transportation service provider had not
                 yet invoiced the Government for the move. We reviewed four examples that
                 identified the actual DPS costs paid versus the potential direct procurement
                 method costs. We also reviewed Service documentation supporting system
                 change requests to the DPS, and reviewed planned DPS Phase III upgrades.


                 Contracting Support
                 We evaluated contracts awarded in support of the PCS Program and the
                 movement of HHG, as well as other areas identified during the audit. Specifically,
                 we evaluated contract HC1028-08-D-2016, awarded by USTRANSCOM for the
                 development of DPS, valued at approximately $6 million, which is the backbone
                 of DoD’s Personal Property Program. In addition, we evaluated the contract awarded
                 by USTRANSCOM for the global end-to-end transportation of personal vehicles,
                 valued at approximately $920 million.

                 We also coordinated with the Services to obtain all contracts awarded under the
                 direct procurement method, which is a means to manage the shipment of HHG
                 using Federal Acquisition Regulation-based contracts awarded at the Service level
                 by local contracting offices. Currently, there are 230 direct procurement method
                 contracts across all Services, valued at approximately $251 million.




38 │ DODIG-2014-076
                                                                                    Appendixes



In addition to the contracts that support the PCS Program, we obtained an
overview of DoD’s Personal Property Program and evaluated various processes
managed by Military Surface Deployment and Distribution Command that support
the program. These processes include transportation service provider approval,
open season and rate approval, and DPS shipment awards.

Additionally, we evaluated certain types of local moves exempted from prescribed
PCS weight limitations and determined whether the additional costs incurred to
fund these moves impacted the PCS Program. We coordinated with the Office of
the Deputy Assistant Secretary of Defense for Transportation Policy and the
Services to determine whether the Services funded these moves with PCS funds.
We obtained examples of moves where the weight of a service member’s
HHG significantly exceeded their normal JFTR entitlement if the moves were
considered PCS moves. We also evaluated the cost-effectiveness of the Patriot
Express Program related to PCS travel. We coordinated with USTRANSCOM to
obtain an overview of the Patriot Express Program and determined how Patriot
Express flight costs are established. We also coordinated with the Services to
obtain data on the top locations from which service members originate and the
corresponding locations in which service members arrive overseas via Patriot
Express in order to evaluate the cost-effectiveness of the program across all
Services. In addition, we evaluated a statutory incentive aimed at minimizing
the weight of HHG shipments. We coordinated with the Defense Travel
Management Office, USD(P&R), USTRANSCOM, and the Services to determine
DoD’s rationale for not implementing the statutory incentive that was enacted
into law to minimize the cost of HHG shipments.

Lastly, we evaluated ongoing initiatives that may lead to additional cost savings
and efficiencies in the PCS Program. Specifically, we obtained and reviewed the
new policy on professional books, papers, and equipment that established a
maximum net weight limit of 2,000 pounds for shipments, with no authority to
waive the limitation. We also coordinated with the Joint Service Team to
understand the shipping office regionalization effort targeted at significantly
reducing the manpower required to support PCS moves. Appendix C provides
a comprehensive list of organizations we visited or contacted.




                                                                                DODIG-2014-076│ 39
Appendixes



                 Use of Computer-Processed Data
                 We did not rely on computer-processed data to support our findings and conclusions
                 for this audit.


                 Use of Technical Assistance
                 The DoD Office of Inspector General Quantitative Methods Division assisted in
                 evaluating the linear regression model the Services stated they use to predict
                 operational, rotational, and training PCS travel requirements. Specifically, the
                 Quantitative Methods Division reviewed documentation the Navy provided on its
                 model and determined its Minitab Regression Output indicates it is a good predictor
                 of the response variable, compared to using the mean of the response variable.




40 │ DODIG-2014-076
                                                                                      Appendixes




Appendix B
Prior Coverage
During the last 5 years, the Department of Defense Inspector General (DoD IG),
the Army Audit Agency, and the Air Force Audit Agency have issued 19 reports
discussing PCS, the shipment of HHG, NTS, and the Patriot Express Program.
Unrestricted DoD IG reports can be accessed at http://www.dodig.mil/pubs/index.cfm.

Unrestricted Army reports can be accessed from .mil and gao.gov
domains at https://www.aaa.army.mil/.

Air Force Audit Agency reports can be accessed from .mil domains at
https://afkm.wpafb.af.mil/ASPs/CoP/OpenCoP.asp?Filter=OO-AD-01-41
by personnel with Common Access Cards.


DoD OIG
DoD OIG Report No. DODIG-2013-083, “Efforts to Minimize Improper Payments for
the Shipment of Household Goods Were Generally Effective But Need Improvement,”
May 15, 2013


Army
Army Audit Agency Report No. A-2014-0017-FMF, “Nontemporary Storage Costs,”
December 2, 2013

Army Audit Agency Report No. A-2010-0219-FFM, “Internal Controls Over Personal
Property Shipment Costs-DOD,” September 30, 2010

Army Audit Agency Report No. A-2010-0177-FFM, “Internal Controls Over Personal
Property Shipment Costs-Army,” September 16, 2010


Air Force
Air Force Audit Agency Report No. F-2013-0034-RWT000, “Personally Procured
Movement of Household Goods, 355th Fighter Wing, Davis-Monthan AFB AZ,”
March 11, 2013

Air Force Audit Agency Report No. F-2013-0021-RWT000, “Personally Procured
Movement of Household Goods, 82nd Training Wing, Sheppard AFB TX (REVISED),”
January 24, 2013



                                                                                  DODIG-2014-076│ 41
Appendixes



                 Air Force (cont’d)
                 Air Force Audit Agency Report No. F-2011-0101-FDE000, “Follow-up Audit,
                 Household Goods, 100th Air Refueling Wing, Royal Air Force Mildenhall, United
                 Kingdom,” September 14, 2011

                 Air Force Audit Agency Report No. F-2011-0017-FCT000, “Controls over
                 Permanent Change of Station Moves, Oklahoma City Air Logistics Center,
                 Tinker AFB OK,” April 29, 2011

                 Air Force Audit Agency Report No. F-2010-0114-FDE000, “Household Goods, 100th
                 Air Refueling Wing, Royal Air Force, Mildenhall, United Kingdom,” September 2, 2010

                 Air Force Audit Agency Report No. F-2010-0113-FDE000, “Patriot Express
                 Utilization, 379th Air Expeditionary Wing, Southwest, Asia,” August 31, 2010

                 Air Force Audit Agency Report No. F-2010-0006-FD4000, “Active Duty Permanent
                 Change of Station Management,” May 6, 2010

                 Air Force Audit Agency Report No. F-2010-0007-FDE000, “Permanent Change
                 of Station, 48th Fighter Wing, Royal Air Force, Lakenheath, United Kingdom,”
                 November 3, 2009

                 Air Force Audit Agency Report No. F-2009-0052-FBP000, “Permanent Change
                 of Station Management, 18th Wing, Kadena AB, Japan,” August 17, 2009

                 Air Force Audit Agency Report No. F-2009-0045-FBP000, “Permanent Change
                 of Station Management, 36th Wing, Andersen, AFB, Guam,” August 4, 2009

                 Air Force Audit Agency Report No. F-2009-0041-FBP000, “Permanent Change
                 of Station Management, 8th Fighter Wing, Kunsan, AB, Korea,” July 7, 2009

                 Air Force Audit Agency Report No. F-2009-0040-FBP000, “Permanent Change
                 of Station Management, 51st Fighter Wing, Osan AB, Korea,” June 19, 2009




42 │ DODIG-2014-076
                                                                                   Appendixes



Air Force (cont’d)
Air Force Audit Agency Report No. F-2009-0069-FDE000, “Permanent Change
of Station Management, 435th Air Base Wing, Ramstein AB, Germany,” June 9, 2009

Air Force Audit Agency Report No. F-2009-0071-FDE000, “Permanent Change
of Station Management, 52nd Fighter Wing, Spangdahlem AB, Germany,” June 9, 2009

Air Force Audit Agency Report No. F-2009-0031-FBL000, “Personally Procured
Movement of Household Goods, 55th Wing, Offutt AFB NE,” March 10, 2009




                                                                               DODIG-2014-076│ 43
Appendixes




                 Appendix C
                 Organizations Visited or Contacted
                                                         Department of Defense
                      Office of the Under Secretary of Defense, Acquisition, Technology, and Logistics
                      (Alexandria, Virginia)
                      Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD
                      (Washington, D.C.)
                      Office of the Under Secretary of Defense, Personnel and Readiness (Washington, D.C.)
                      Defense Travel Management Office (Alexandria, Virginia)
                      RAND Corporation (Contractor for Office of the Secretary of Defense Personnel and Readiness)
                      (Arlington, Virginia)
                                                         Combatant Command
                      U.S. Transportation Command (Scott Air Force Base, Illinois)
                                                        Department of the Army
                      Army Military Personnel, Army Budget Office (Arlington, Virginia)
                      Army Human Resources Command, Organizational Inspection Program (Fort Knox, Kentucky)
                      Defense Military Pay Office Fort Hood (Killeen, Texas)
                      Defense Military Pay Office Fort Eustis (Newport News, Virginia)
                      Human Resources Command (Fort Knox, Kentucky)
                      Installations Management Command Fort Sam Houston (San Antonio, Texas)
                      Installation Reassignment Processing Branch (Fort Hood, Texas)
                      Joint Personal Property Shipping Office, Mid-Atlantic (Fort Belvoir, Virginia)
                      Military Personnel Branch Fort Eustis (Newport News, Virginia)
                      Military Surface Deployment and Distribution Command (Scott Air Force Base, Illinois)
                      Office of the Assistant Secretary of the Army (Business Transformation Directorate)
                      (Washington, D.C.)
                      Office of the Assistant Secretary of the Army (Financial Management & Comptroller),
                      Army Internal Review (Washington, D.C.)
                      Office of the Deputy Chief of Staff of the Army, G-4, Logistics (Washington, D.C.)
                      Office of the Deputy Chief of Staff, Plans and Resources Directorate (Washington, D.C.)
                      Personal Property Office Fort Eustis (Newport News, Virginia)
                      Personal Property Office Fort Hood (Killeen, Texas)
                      U.S. Army Sustainment Command (Rock Island, Illinois)




44 │ DODIG-2014-076
                                                                                                  Appendixes



                               Department of the Air Force
Air Force Accounting and Finance Office Ellsworth Air Force Base (Rapid City, South Dakota)
Air Force Financial Services Center Ellsworth Air Force Base (Rapid City, South Dakota)
Air Force Personnel Center Randolph Air Force Base (San Antonio, Texas)
Air Force Personal Property Policy (Andrews Air Force Base, Maryland)
Excess Cost Adjudication Function (Lackland Air Force Base, Texas)
Financial Services Office Langley Air Force Base (Hampton, Virginia)
Financial Services Office Randolph Air Force Base (San Antonio, Texas)
Joint Personal Property Shipping Office Kelly Annex (San Antonio, Texas)
Military Personnel Section Langley Air Force Base (Hampton, Virginia)
Military Personnel Section Randolph Air Force Base (San Antonio, Texas)
Personal Property Activity Headquarters Kelly Annex (San Antonio, Texas)
Secretary of the Air Force Financial Management, (Arlington, Virginia)
                                 Department of the Navy
Bureau of Naval Personnel, Naval Personnel IG (Millington, Tennessee)
Bureau of Naval Personnel, Permanent Change of Station (Arlington, Virginia)
Bureau of Naval Personnel, Permanent Change of Station Variance Component
(Cleveland, Ohio)
Deloitte Consulting (contractor for Bureau of Naval Personnel) (Arlington, Virginia)
Navy Detailers (Millington, Tennessee)
Navy Household Goods Audit Office (Norfolk, Virginia)
Navy Pay and Personnel Support Center (Millington, Tennessee)
Navy Personnel Command Career Management Branch (Millington, Tennessee)
Navy Personnel Command Comptroller (Millington, Tennessee)
Navy Personnel Command Distribution Management (Millington, Tennessee)
Navy Personnel Command Policy and Procedures (Millington, Tennessee)
Navy Personnel Support Detachment (Norfolk, Virginia)
Naval Supply System Command Consolidated Personal Property Shipping Office
(Norfolk, Virginia)
Naval Supply Systems Command (Mechanicsburg, Pennsylvania; San Diego, California)
Office of the Chief of Naval Operations, Manpower, Personnel, Training and Education,
Strength Programing Office (Arlington, Virginia)




                                                                                              DODIG-2014-076│ 45
Appendixes



                                                             Marine Corps
                      Marine Corps Installations and Logistics, Logistics Distribution Branch (Washington, D.C.)
                      Marine Corps Manpower Management (Quantico, Virginia)
                      Marine Corps Programs and Resources (Quantico, Virginia)
                      Marine Corps Manpower Management Integration Branch (Quantico, Virginia)
                      Marine Corps Manpower and Reserve Affairs (Quantico, Virginia)
                      Marine Corps Monitors (Quantico, Virginia)
                      Marine Corps Programs and Resources Manpower Budget Branch (Arlington, Virginia)
                      Marine Corps Programs and Resources Finance Branch (Quantico, Virginia)
                      Marine Corps Technology Service Organization (Quantico, Virginia)
                      Regional Contracting Office, Marine Corps Base Camp Lejeune/Marine Corps Air Station
                      Cherry Point (Jacksonville, North Carolina)
                      Regional Contracting Office , Marine Corps Air Ground Combat Center
                      (Twentynine Palms, California)
                      Regional Contracting Office, Marine Corps Base Camp Pendleton (Oceanside, California)
                      Regional Contracting Office, Marine Corps Recruit Depot (Parris Island)/Marine Corps Air
                      Station (Beaufort, South Carolina)




46 │ DODIG-2014-076
                                            Management Comments




Management Comments
Under Secretary of Defense (Comptroller)/
Chief Financial Officer, DoD Comments




                                                  DODIG-2014-076│ 47
Management Comments



                 Under Secretary of Defense for Personnel and
                 Readiness Comments




48 │ DODIG-2014-076
                                               Management Comments



Under Secretary of Defense for Personnel and
Readiness Comments (cont’d)




                                                     DODIG-2014-076│ 49
Management Comments



                 Army Logistics Comments




50 │ DODIG-2014-076
                                   Management Comments



Army Logistics Comments (cont’d)




                                         DODIG-2014-076│ 51
Management Comments



                 Naval Supply Systems Command Comments




52 │ DODIG-2014-076
                                            Management Comments



Naval Supply Systems Command Comments (cont’d)




                                                  DODIG-2014-076│ 53
Management Comments



                 Naval Supply Systems Command Comments (cont’d)




54 │ DODIG-2014-076
                                                                                                            Management Comments



Headquarters, Air Force Logistics Comments
                                                                                                                Final Report
                                                                                                                References
                                 DEPARTMENT OF THE AIR FORCE
                                 HEADQUARTERS UNITED STATES AIR FORCE
                                              WASHINGTON, DC




     MEMORANDUM FOR DEPARTMENT OF DEFENSE OFFICE OF INSPECTOR GENERAL
                    (CONTRACT MANAGEMENT AND PAYMENTS)

     FROM: HQ USAF/A4L
           1030 Air Force Pentagon
           Washington, DC 20330-1030

     SUBJECT: DoD IG Draft Report--Opportunities for Cost Savings and Efficiencies in the DoD
     Permanent Change of Station Program (Project No. D2014-D000CJ-0028.000)

     Reference: (a) Inspector General, Department of Defense, Letter dated Apr 14, 2014,
     SUBJECT: Opportunities for Cost Savings and Efficiencies in the DoD Permanent
     Change of Station Program (Project No. D2014-D000CJ-0028.000)
             Thank you for the opportunity to review the Opportunities for Cost Savings and
     Efficiencies in the DoD Permanent Change of Station Program Audit. We appreciate the
     opportunity afforded to review the findings prior to final publication. Below are our management
     comments for the report.

             RECOMMENDATION (1): Develop quality control and standard operating procedures                  Recommendation 6.a.
     to ensure personal property shipping office personnel perform quarterly reviews of all non-
     temporary storage lots to determine whether the entitlements are still valid based on the situation
     used to establish the lot, and initiate action to convert those lots where the entitlement no longer
     exists from a Government storage account to the service member's responsibility and expense.

            COMMENT: Concur with finding. Personal Property Activity HQ OI 24-01 has been
     updated to include quality control measures and quarterly review of all NTS Lots in storage past
     the expiration date and to initiate action to convert lots where an entitlement no longer exists.
     Completed 22 Apr 14.

            RECOMMENDATION (2): Establish policy requiring personal property shipping office                Recommendation 6.b.
     personnel to determine and use the most cost-effective method to ship and store domestic
     household goods weighing 1,000 pounds or less.

            COMMENT: Concur with finding. The Air Force Supplement to the Joint Federal Travel
     Regulation has been changed to add policy to use Direct Procurement Method contracts to move
     domestic shipments weighing 1,000 pounds or less when cost-effective and circumstances
     warrant. Completed 22 Apr 14.




                                                                                                                  DODIG-2014-076│ 55
Management Comments



                 Headquarters, Air Force Logistics Comments (cont’d)




                              Implementation of recommendations to update policy and standard operating procedures
                      satisfies internal control weakness identified in the report.

                              In summary, we greatly appreciate the efforts of the DoD IG to identify recommended
                      improvement areas of this important program. The Air Force remains committed to the Defense
                      Personal Property Program and are confident these improvements will enable us to obtain
                      efficiencies to reduce costs. Please feel free to direct any questions to my point of contact,
                                      Chief, Logistics Readiness Division                    .

                                                                                         Digitally signed by
                                                                         COLLINS.EUGE    COLLINS.EUGENE


                                                                         NE                   OLLINS.EUGENE
                                                                                         Date: 2014.04.29 16:23:52 -04'00'



                                                                         EUGENE COLLINS, SES
                                                                         Deputy Director of Logistics
                                                                         DCS/Logistics, Installations & Mission Support




                      2




56 │ DODIG-2014-076
                                                      Management Comments



Marine Corps Logistics Plans, Policy, and Strategic
Mobility Comments




                                                            DODIG-2014-076│ 57
Management Comments



                 Marine Corps Logistics Plans, Policy, and Strategic
                 Mobility Comments (cont’d)




58 │ DODIG-2014-076
                                                      Management Comments



Marine Corps Logistics Plans, Policy, and Strategic
Mobility Comments (cont’d)




                                                            DODIG-2014-076│ 59
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                              DPS Defense Personal Property System
                              DTR Defense Transportation Regulation
                              GSA General Services Administration
                              HHG Household Goods
                              JFTR Joint Federal Travel Regulations
                              NTS Nontemporary Storage
                               PCS Permanent Change of Station
                             TOPS Transportation Operational Personal Property Standard System
                        USD(AT&L) Under Secretary of Defense for Acquisition, Technology, and Logistics
                         USD(P&R) Under Secretary of Defense for Personnel and Readiness
                      USTRANSCOM U.S. Transportation Command




60 │ DODIG-2014-076
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
